No. _______
__________________________________________________________________
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
STATE OF MAINE,
Respondent,
v.
JONATHAN LIMARY,
Petitioner.
__________________________________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MAINE SUPREME JUDICIAL COURT
__________________________________________________________________
PETITION FOR A WRIT OF CERTIORARI
__________________________________________________________________

Hunter J. Tzovarras
Counsel for Petitioner
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207)941-8443
hunter@bangorlegal.com

I. QUESTION PRESENTED
Did the lower court deny Jonathan Limary the right to a fair and
impartial jury under the Sixth Amendment of the United States
Constitution, by denying his request to conduct voir dire regarding the
justifications of self-defense and defense of others during jury selection?

i

II. PARTIES TO THE PROCEEDINGS
Hunter J. Tzovarras
Counsel for Petitioner
88 Hammond Street, Ste 321
Bangor, Maine 04401
hunter@bangorlegal.com

Robert Ellis
Office of the Maine Attorney General
Counsel for Respondent
6 State House Station
Augusta, ME 04333
Robert.Ellis@maine.gov

ii

TABLE OF CONTENTS
I. QUESTION PRESENTED

……………………………………….………i

II. PARTIES TO THE PROCEEDINGS …………………………….………ii
III. TABLE OF CONTENTS

………….…………………………….………iii

IV. TABLE OF AUTHORITIES

…….…………………………….………iv

V. PETITION FOR WRIT OF CERTIORARI …………………………….…1
VI. OPINION BELOW

…………………………………………………….…1

VII.STATEMENT OF JURISDICTION ……………………………………… 1
VIII.CONSTITUTIONAL PROVISIONS INVOLVED .……………………. 1
IX. STATEMENT OF THE CASE

….……………………………………. 2

X. REASONS FOR GRANTING THE PETITION

……………………… 6

XI. CONCLUSION ………………………………………………….………. 12
XII. CERTIFICATE OF SERVICE …………………………………………… 13
XIII.APPENDIX

…………………………………………………………. A.1

iii

IV. TABLE OF AUTHORITY

CASES
Aldridge v. U.S., 283 U.S. 308 (1931) ………………………………………….11
Mu’min v. Virginia, 500 U.S. 415 (1991) ………………………………………..7
Griffin v. Arkansas, 389 S.W. 2d. 900 (Ark. 1965)

……………………………8

People v. Gregg, 732 N.E. 2d 1152 (Ill. 2000) …………………………………9
State of Maine v. Jonathan Limary, 2020 ME 83, ___ A.3d ___, 2020
WL2974094 ……………………………………………………………….. 1, 5, 6
People v. Taylor, 489 N.W. 2d 99 (Mich. Ct. App. 1992) ………………….9, 10
Savo v. State, 382 P.3d 1179 (Ala. App. 2016) ………………………………. 10
Simpson v. State, 276 So.3d 955 (Fla. Dist. Ct. App. 2019) ………………… 10
STATUTES
28 U.S.C. §1257(a) ……………………………………………………..………1

CONSITITIONAL PROVISIONS
United States Constitution, Amendment VI …………………………….1-2, 7

iv

V. PETITION FOR WRIT OF CERTIORARI
Jonathan Limary, an inmate currently incarcerated at the Maine
State Prison in Warren, Maine, by and through Hunter Tzovarras,
respectfully petitions this Court for a writ of certiorari to review the
judgment of the Maine Supreme Judicial Court.
VI. OPINION BELOW
The Maine Supreme Judicial Court's decision is reported at State of
Maine v. Jonathan Limary, 2020 ME 83, ___ A.3d ___, 2020 WL2974094 (West
2020). The decision of the trial court is not reported and was ruled on
orally; a copy is provided in the appendix.
VII. STATEMENT OF JURISDICTION
The Court has jurisdiction under 28 U.S.C. 1257(a). This matter
seeks the review of a decision from the State of Maine's highest court on a
decision involving the Sixth Amendment right to a fair trial. The Maine
Supreme Judicial Court issued its decision on June 4, 2020.
VIII. CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment of the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be

1

confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his
defence.
U.S. Const. amend IV.
IX. STATEMENT OF THE CASE
Jonathan Limary was indicted on January 19, 2018, on the charges
of manslaughter and aggravated assault stemming from a fight on
October 30, 2017, involving Jean Bragdon and others. During the trial, Mr.
Limary presented a case of self-defense and defense of others. He
admitted to fighting and kicking Mr. Bragdon in an effort to protect
himself and others involved in the altercation.
At the close of the evidence, the trial court instructed the jury on
these defenses. It was the first time the trial court discussed these potential
defenses with the jurors. The court previously denied Mr. Limary's request
to inquire about the potential jurors’ bias towards the justification
defenses of self-defense and defense of others.
The jury was selected on May 13, 2019. Before jury selection, the
defense requested the court to include in the written questionnaire
questions related to self-defense and defense of others. Transcript of Jury
Selection Proceedings at 2, (May 13, 2019) (Law Ct. No. 19-329).The
defense requested the court ask the jury the following questions:

2

If during the trial Mr. Limary generates evidence that
he acted in self-defense or in the defense of another in
using physical force against Mr. Bragdon, the State
must prove beyond a reasonable doubt that Mr.
Limary did not act in self-defense or defense of
another. Would you have any difficulty applying this
burden on the State to disprove self-defense or
defense of another beyond a reasonable doubt?
Id. at 2-3.
Would you be willing to find Mr. Limary not guilty if
he acted in self-defense or in defense of another using
physical force against Mr. Bragdon?
Id. at 3.
Do you have any personal, religious, philosophical or
other beliefs that a person is never justified in using
physical force against another human-being even if it
is done in self-defense or defense of another?
Id.
In support of the above questions, the defense proffered that issues
of self-defense and/or defense of others would be generated by the
evidence at trial:
As far as the proffer what the evidence will show ... is
that there was ... a fight between Mr. Bragdon and,
um, a friend of Mr. Limary's, Andrew Geer, that Mr.
Bragdon had, um, sent messages to Mr. Greet that he
wanted to fight and that he was going to hurt , um,
Mr. Greet as well as girls, girlfriends that Mr. Limary
and Mr. Greer had. And Mr. Limary was aware of
these text messages. They then drove to a location
that Mr. Bragdon had arranged for then to fight at,
which was a parking lot.

3

When they arrived at the parking lot, Mr. Bragdon
came running across the street with another friend, or
across the parking lot, and then began engaging in a
fight between Mr. Geer and Mr. Bragdon. Mr. Limary
was then engaged in a physical altercation with a
friend of Mr. Bragdon's. At some point, other
individuals started to come across the parking lot
from the area where Mr. Bragdon ran from. This
caused concern to people that were sitting in the
vehicle that had arrived with Mr. Geer and Mr.
Limary. They got out of the car and started yelling,
warning Mr. Geer and Mr. Limary that other people
were coming. At some point, Mr. Geer and Mr.
Bragdon ended up on the ground. Mr. Bragdon was
getting up off—according to the State's witness, Mr.
Geer. In one of his statements, Mr. Bragdon was
getting up off the ground coming after Mr. Geer to
fight some more when Mr. Limary kicked him once in
the face."
Id. at 3-5.
The State objected to the requested questions. Id. at 5-6.
The court denied Mr. Limary’s request to provide any of the three
questions on self-defense or defense of others. Id. at 7-8. The court
indicated it would "give a voir dire question that inquires of, um, whether
or not jurors would have, um, any difficulty in being a fair and impartial
juror when fighting has occurred." Id. at 8.
The court provided no voir dire questions mentioning the law of
self-defense or defense of others. At the close of the voir dire process, the

4

Defendant again renewed his objection to not asking the questions related
to self-defense and defense of others. Id. at 205.
Following a jury trial, the court instructed the jury on the law of
self-defense and the defense of others. The jury returned verdicts of guilty
on both charges. Limary, 2020 ME 83, ¶ 11. The court imposed a sentence
on the manslaughter charge of sixteen years, with all but forty-five months
to serve and four years of probation. A concurrent forty-five month
sentence was ordered on the aggravated assault charge. Id.
On appeal, the Maine Supreme Judicial Court upheld the trial
court’s ruling on Mr. Limary's proposed voir dire questions on June 4,
2020. Id. at ¶ 27.
In reaching its decision, the Maine Supreme Court recognized:
As to legal defenses and justifications—as opposed to
questions regarding potential evidence-based and
status-based biases against parties or expected
witnesses—some courts in other states have decided
that several possible defenses and justifications,
including self-defense, are sufficiently “controversial”
that they must be specifically explored during voir
dire if requested by a party.
Id. ¶ 22.
The court declined to follow other States’ requirements that such defenses
be inquired about at voir dire to assure a fair trial. Rather, the court sided
with the "other courts that have considered whether a requested self-

5

defense question must be posed to potential jurors during voir dire,
however, hold that the determination is in the discretion of the trial court
based on the circumstances before it. " Id. at ¶ 23. The court concluded:
We have not identified any particular defense or
justification as being sufficiently “controversial” to
warrant special inquiry during jury voir dire
whenever raised and cannot now conclude that the
law regarding defense of self or others is sufficiently
controversial to justify elevating its significance above
the many other potential forms of bias that could, in
theory, be the subject of specific inquiry during jury
voir dire. We are not persuaded that there exists
societal bias against the law of defense of self or
others to the extent that the constitutional right to a
fair trial compels specific voir dire inquiry during jury
selection.
Id. at ¶ 24.
Mr. Limary now seeks review of that decision with this Court.
X. REASONS FOR GRANTING THE PETITION
The Court should grant certiorari because the decision of Maine's
highest court is in conflict with the decisions of other state appellate courts
requiring voir dire on the justification defenses.
The lower courts denied Mr. Limary a fair trial by denying him the
ability to inquire about potential jurors' bias or prejudices involving the
law of self-defense or defense of others. The three questions proposed by
defense counsel sought to discover any bias or prejudice in applying the

6

law of self-defense. The potential for bias—left unexplored—denied Mr.
Limary his Sixth Amendment right to an impartial jury and fair trial.
“In all criminal prosecutions, the accused shall enjoy the right to . . .
an impartial jury . . . .” U.S. Const. amend. VI.
The voir dire questioning of potential jurors serves the “dual
purposes of enabling the court to select an impartial jury and assisting
counsel in exercising peremptory challenges.” Mu’min v. Virginia, 500 U.S.
415, 431 (1991).
The Maine Supreme Judicial Court's decision that voir dire
questions regarding the law of self-defense and defense of others are not
required to assure a fair trial is in conflict with the holdings of other state
appellate court decisions.
The appellate courts in Arkansas, Illinois, and Michigan all require
inquiry into the law of justification defenses to assure the accused a fair
trial. The appellate court in Florida and Alaska have likewise held a
defendant is denied a fair trial when these justifications are not inquired
into at the time of jury selection.
In Griffin v. Arkansas, 389 S.W. 2d. 900, 901 (Ark. 1965), the appellant
was accused of involuntary manslaughter. At trial, appellant sought to
argue defense of justification and asked to question the venire through

7

voir dire “how they felt about the law of self-defense” when a man has
killed a woman. Id. at 902. The court refused such questioning, asserting
that it had already questioned jurors “as to whether or not they could and
would follow the law as given by the Court and an affirmative indication
given by each to the Court.” Id. On appeal, the Arkansas Supreme Court
determined that the trial court should have allowed such questioning. Id.
The Arkansas high court held:
The court should have permitted counsel to question
the veniremen as indicated. The mere fact that they
stated that they would follow the law as given by the
court was not necessarily sufficient to enable counsel
to determine whether peremptory challenges should
be exercised. There are very few people bold enough
to say that they will not follow the law, and yet there
are many people who do not believe there is any
justification for taking human life, whether it is done in
self-defense or in defense of their homes, their family, or
their country. In many instances, counsel decides
whether to use a peremptory challenge not so much
on what a venireman may say, but on how he says it.
Id. (emphasis added).
In People v. Gregg, 732 N.E. 2d 1152, 1154 (Ill. 2000), the appellant
stood accused of trafficking of cocaine in-state. In response to a question
from a juror concerning the burden of proof required for a finding of legal
insanity, the court opined that “jurors would be instructed as to the
defendant's burden at the close of the trial” and, as such, denied

8

appellant’s request. Id. at 1155. On appeal, the Illinois Supreme Court held
“[t]he standard for evaluating the court's exercise of discretion is whether
the questions and the procedures used during voir dire to gauge juror
competency created a reasonable assurance that any prejudice or bias
present would be discovered.” Id. at 1158. It notes “[a]lthough the insanity
defense upon which the defendant relied is a well-recognized legal
defense, it remains a subject of intense controversy and has been described
as ‘a defense which is known to be subject to bias or prejudice.’” Id. at 1168
(internal citations omitted). Because of this known bias, the court holds
narrowly that jurors must be instructed on burden of proof in insanity
cases on voir dire when so requested by counsel. Id. at 1163.
In People v. Taylor, 489 N.W. 2d 99, 100 (Mich. Ct. App. 1992), the
appellant was convicted in state trial court of, inter alia, felonious assault
with a deadly weapon. The appellant argued on appeal that the trial court
erred in refusing to allow her to question potential jurors on voir dire
concerning their “attitude toward self-defense and the use of deadly
force.” Id. at 100-01. The Michigan appellate court held “the refusal of the
trial court to ask any questions concerning the subject of self-defense and
juror attitudes toward the use of deadly force unduly restricted voir dire
and was an abuse of discretion.” Id.

9

The Florida Court of Appeals has held that a trial court erred in
failing to ask questions regarding battered-spouse syndrome and selfdefense during jury selection.
While it is proper for a trial court to prohibit counsel
from asking questions that are designed to obtain a
preview of the prospective jurors' opinions of the
evidence, a trial court abuses its discretion where it
precludes questioning pertaining to the prospective
jurors' willingness and ability to accept a valid legal
theory.
Simpson v. State, 276 So. 3d 955, 958 (Fla. Dist. Ct. App. 2019) (internal
citations omitted).
In Savo v. State, 382 P.3d 1179 (Ala. Crim. App. 2016), the court held
the trial court erred in denying the defense the right to ask about selfdefense during jury selection.
All of the above cases are at odds with the Maine Supreme Judicial
Court's decision in this matter. Prior to jury selection, Mr. Limary
presented a proffer supporting the justification defenses of self-defense
and defense of others. He presented three questions designed to
determine potential jurors’ bias or prejudice towards these justifications.
The court’s failure to allow any inquiry into these justifications denied
him a fair and impartial jury.

10

This Court has held that trial courts must allow voir dire of
individual jurors that seeks to root out bias against defendants
“entertaining a disqualifying prejudice.” Aldridge v. U.S., 283 U.S. 308,
314-15 (1931). The lower courts denied Mr. Limary that right and denied
him a fair trial in doing so.
The issue presented in this case reaches far beyond Mr. Limary and
will affect a multitude of individuals accused of crimes throughout the
Country. The Court should address the conflict among State appellate
courts as to whether justification defenses are sources of potential biasis
that require inquiry during juror voir dire to assure a fair trial.
As the law currently stands, a defendant’s right to inquire as to
justification defenses and thus select a fair and impartial jury, under the
Sixth Amendment, vary from state to state. If Mr. Limary's case was in
Arkansas or Illinois, or one of the other states requiring such inquiry at
voir dire, he would receive a different trial than he did in Maine. In order
to assure the States are evenly applying the right to a fair and impartial
jury, the Court should address and decide the issue presented in this
matter
The present case is a good vehicle for deciding the issue presented.
It provides a clear case of self-defense and defense of others presented at

11

trial. The trial court gave instructions at the close of evidence on these
justification defenses. The defense raised the issue of inquiring into these
justification defenses prior to the start of jury selection, and proffered as to
the relevance of the inquiry and generation of such defenses through the
anticipated trial evidence. The record below clearly preserves these issues.
They were litigated at the trial and appellate levels.
XII. CONCLUSION
The Court is respectfully requested to grant this petition for
certiorari for the reasons set forth above.

DATED this 31st day of August, 2020.

/s/Hunter J. Tzovarras
Hunter J. Tzovarras
Counsel for Petitioner
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207)941-8443
hunter@bangorlegal.com

12

XIII. CERTIFICATE OF SERVICE
I hereby certify that a copy of this Petition for a Writ of Certiorari,
together with the attached Appendix, has this date been sent by email and
first class mail, postage prepaid, to counsel for the State as follows:
By e-mail to: Robert.Ellis@maine.gov
By regular mail to: Robert J. Ellis, Jr. AAG
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333-0006

DATED this 31st day of August, 2020.

/s/Hunter J. Tzovarras
Hunter J. Tzovarras
Counsel for Petitioner
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207)941-8443
hunter@bangorlegal.com

13

No. _______
__________________________________________________________________
SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
STATE OF MAINE,
Respondent,
v.
JONATHAN LIMARY,
Petitioner.
__________________________________________________________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MAINE SUPREME JUDICIAL COURT
__________________________________________________________________
APPENDIX
__________________________________________________________________

Hunter J. Tzovarras
Counsel for Petitioner
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207)941-8443
hunter@bangorlegal.com

A.1

APPENDIX TABLE OF CONTENTS
Appendix Table of Contents ……………………………………………… A.2
Transcript of Jury Selection Proceedings (May 13, 2019)(Law Ct. No.
19-329) ……………………………………………………………………..…. A.3
State v. Limary, 2020 ME 83, ___ A.3d ___, 2020 WL2974094
……………………………………………………………………………….. A.10
28 U.S.C. §1257(a) ……………………………………………………..…. A.38
Brief for Petitioner, State v. Limary, 2020 ME 83, 2020 WL 2974094 ….. A.39

A.2

1
1

STATE OF MAINE

SUPERIOR COURT
Criminal Action

2
3

AROOSTOOK, ss.

Docket No. AROCD-CR-18-12
Law Court No. ARO-19-329

4
5

STATE OF MAINE,
Plaintiff,

6
7

vs.

8

JONATHAN LIMARY,
Defendant.

9
10

JURY SELECTION

11
12
13

BEFORE:

Honorable Harold L. Stewart II

14

Justice of the Superior Court

15

Aroostook County Courthouse

16

144 Sweden Street

17

Caribou, ME 04736

18

May 13, 2019

19

8:55 A.M.

20

APPEARANCES:

21

For the State:

Robert Ellis, Esq.

22

For the Defendant:

Hunter J. Tzovarras, Esq.
Adam P. Swanson, Esq.

23
24

Wendy S. Ambrose

25

Official Court Reporter

A.3

2
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

TRANSCRIPT OF PROCEEDINGS
(The following proceeding was held
before Honorable Harold L. Stewart, II,
Justice of the Superior Court, at the
Aroostook County Courthouse, Caribou,
Maine, on May 13, 2019, commencing at
8:55 A.M. The following proceeding was
J
c a b .)
THE COURT: We can start our record on
the Limary matter. I got to get a little sticky
that says long I.
THE STATE: Yeah.
THE COURT: A
final edit to the juror written voir dire. And
the issue is that of giving a voir dire question
regarding self-defense. So, Attorney
Tzovarras, if you want to make your record.
MR. TZOVARRAS: Thank you, your
H
. T
a
propose the Court ask in voir dire, um, as
part of the written questionnaire that relates
to the law of self-defense. The questions are,
one, if during the trial Mr. Limary generates
evidence that he acted in self-defense or in
the defense of another in using physical force
A.4

3
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

against Mr. Bragdon, the State must prove
beyond a reasonable doubt that Mr. Limary
did not act in self-defense or defense of
another. Would you have any difficulty
applying this burden on the State to disprove
self-defense or defense of another beyond a
reasonable doub ? T a
e
e
questions.
T e ec d e
a e e
the Court ask is, would you be willing to find
Mr. Limary not guilty if he acted in selfdefense or in defense of another in using
physical force against Mr. Jean Bragdon?
A d e
d e
e e
is, do you have any personal, religious,
philosophical or other beliefs that a person
is never justified in using physical force
against another human being even if it is
done in self-defense or defense of another?
And the rea
e ea
e
three questions, your Honor, or, um, or any
of the questions is, um, is that we believe that
self-defense and defense of others will be
generated in this case.
As far as the proffer what the evidence will
A.5

4
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

show, your Honor, is that there was, um, a
fight between Mr. Bragdon and, um, a friend
M .L
,A
G ,
Mr. Bragdon had, um, sent messages to
Mr. Geer that he wanted to fight and that he
was going to hurt, um, Mr. Geer as well as,
um, girls, girlfriends that Mr. Limary and
Mr. Geer had. And Mr. Limary was aware of
these text messages. They then drove to a
location that Mr. Bragdon had, um, arranged
for them to fight at, which was a parking lot.
When they arrived at the parking lot,
Mr. Bragdon came running across the street
with another friend, or across the parking lot,
and then began engaging in a fight between
Mr. Geer and Mr. Bragdon. Mr. Limary was
then engaged in a physical altercation with a
M .B
. A
,
individuals started to come across the
parking lot from the area where Mr. Bragdon
had run from. Um, this caused concern to
people that were sitting in the vehicle that
had arrived with Mr. Geer and Mr. Limary.
They got out of the car and started telling,
warning Mr. Geer and Mr. Limary that other
A.6

5
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

people were coming.
At some point, Mr. Geer and Mr. Bragdon
ended up, um, on the ground. Mr. Bragdon
was getting up off -- acc
Sa
witness, Mr. Geer, in one of his statements,
is that Mr. Bragdon was getting up off the
ground coming after Mr., um, Geer to fight
some more when Mr. Limary kicked him
once in the face. And then, um, then they
left at that point.
So, based on that summary of the
evidence, we believe that the issues of selfdefense and defense of others will be
generated. So, it would be important in
selecting a jury, an unbiased jury, to know
whether the jurors have any -- um, will have
any problem applying the law as the Court,
um, will instruct them on these offenses, as
well as knowing whether they have any
beliefs or philosophical opinions, um, that
would prevent them from applying the law
of self-defense or defense of others.
THE COURT: The State?
THE STATE: Judge, as we discussed,
I object to that request. I think the
A.7

6
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

questionnaire covers the basics of the law.
Um, the issue of whether self-defense is
a
a
. W
a
a a
a. A
a
discussion here, I have a very different point
a
a
;
a
talking here is something entirely different.
And I think this falls clearly within the, um,
case of State v. Jeffrey Roby. And the Court
there said, voir dire questions that have no
relationship a
knowledge, bias, or predisposition, or that
are intended to advocate a a
regarding the facts or issues in dispute, are
improper.
I
a
a going on. The
Defense would like to plant the seed of selfdefense early on through the questionnaire
. I
a a
a . I
a a
a
instruction and the testimo
a
generated at trial. Um, again, we can talk
about self-defense later; but in terms of right
now, out of the chute, putting it in a
a ,I
a
.
A.8

7
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

And the Law Court has cautioned against
that and I object to the request. I am
satisfied with the proposal the Court has
made, which gets to a general issue about
philosophical beliefs about fighting or
anything of that nature.
THE COURT: So, the Court recognizes the
issue of giving a self-defense instruction; and
the bar is quite low in there being evidence
sufficient to give that instruction. However,
e e -- we have not received any of the
e de ce a
. A d
c ea
a
e
State and Defense have, um, clearly differing
views as to whether self-defense will be
generated. So, it strikes me that that remains
a decision to be made upon presentation of
the evidence that we see in the courtroom.
The parties are in agreement that this is
-- the entire overall facts of this case will
clearly show that there was fighting occurring
and that, um, fighting amongst individuals
appear to the Court to be one of those things
which an individual juror could have certain
bias or prejudice. Um, and so the Court -I
-- I refuse to give the
A.9

8
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

instructions -- or the voir dire questions, um,
that specifically address self-defense or any
connotation of that. However, I will give a
voir dire question that inquires of, um,
whether or not jurors would have, um, any
difficulty in being a fair and impartial juror
when fighting has occurred.
Anything further to put on the record? I
do want to tweak that a little bit, but we can
do that off the record.
MR. TZOVARRAS: Just to make the
c
c a ,
a
ab
,
a
ab
others.
THE COURT: Yes, yes.
MR. TZOVARRAS: So, you made a ruling
on both, just for the record.
THE COURT: Yeah, I view those as close
cousins.
MR. TZOVARRAS: Right.
THE COURT: S ,
I
a
,I
b .
MR. TZOVARRAS: Yes. No, nothing
further, your Honor. We understand the
ruling.
A.10

9
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

THE COURT: All right. We can go off the
record now.
(T e
ceed g J dge c a be
concluded at 9:00 A.M. and reconvened
in the courtroom at 9:25 A.M.)
THE COURT: Good morning. Please
remain standing while the clerk administers
the oath.
THE CLERK: Please raise your right
a d. Y
ea
aff
a
a e
true answers to such questions as may be
put to you by the Court or by its order, so
help you God or under the pains and
penalties of perjury?
MEMBERS OF THE JURY: (indicate)
THE CLERK: Please, be seated.
THE COURT: So, good morning again,
and welcome back. And as I had told you
over the last couple selections, we have
primarily just one case to do today. And
going to be going at this a little bit differently
than we have in the other cases. So, let me
first start off by introducing the participants.
And so this is a case State of Maine versus
J a a L a . A d e
a b ,
A.11

MAINE SUPREME JUDICIAL COURT
Decision:
2020 ME 83
Docket:
Aro-19-329
Submitted
On Briefs: April 14, 2020
Decided:
June 4, 2020
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, HORTON, and CONNORS, JJ.

STATE OF MAINE
v.
JONATHAN LIMARY
HORTON, J.
[¶1]

Jonathan Limary appeals from a judgment of conviction of

manslaughter (Class A), 17-A M.R.S. § 203(1)(A) (2020), and aggravated assault
(Class B), 17-A M.R.S. § 208(1)(A) (2020), entered by the court (Aroostook
County, Stewart, J.) after a jury trial. Limary argues that the court deprived him
of a fair trial by denying his request during jury voir dire to pose certain
questions in the jury questionnaire, and that the evidence was insufficient to
support a finding that Limary’s actions—rather than subsequent medical
treatment—caused the victim’s death. We affirm the judgment.
I. BACKGROUND
[¶2] Viewing the evidence in the light most favorable to the State, the
jury could rationally have found the following facts beyond a reasonable doubt.
A.12

2

See State v. Asaad, 2020 ME 11, ¶ 8, 224 A.3d 596. Late on the night of
October 29, 2017, Limary and some friends had a dispute, via text-based and
voice-based social media, with the victim—a man whom none of them had met.
As a result, Limary and a friend of his—with three others in the vehicle—drove
from Presque Isle to Caribou to meet up with the victim and his friend in a
parking lot to fight. While Limary and the victim’s friend fought, Limary’s friend
fought with the victim. Limary’s friend and the victim ended up on the ground,
and Limary’s friend eventually got up and backed away from the victim. By
then, another friend of the victim had arrived with his teenage son and had gone
over to help the victim up off the ground. Before the victim could rise from his
knees, Limary approached and forcefully kicked the victim in the face, resulting
in numerous fractures to the victim’s nose, eye orbits, upper jaw, and cheek
bones.
[¶3] The victim received medical care in the early morning hours of
October 30 and was released, but he returned to the hospital later that day and
was admitted. He was released on November 2. He then had two surgeries on
November 9 and was released on November 17. For purposes of the surgeries,
a tracheostomy tube was inserted; that tube was removed two days before the

A.13

3

victim’s release from the hospital, leaving the victim with a healing hole in his
throat at the incision site where the tracheostomy tube had been.
[¶4] On the day that the victim was released, his friend and the friend’s
son brought him to their house. That evening, the victim began bleeding from
the opening in his neck, and his friend called 9-1-1. Under the guidance of the
dispatcher, the victim’s friend performed CPR until the ambulance arrived. The
victim bled profusely, and, despite the paramedics’ resuscitation efforts, he
died. An autopsy revealed that, although at least some blood exited the victim
through the tracheostomy site,1 more extensive hemorrhaging occurred in the
victim’s sinuses.2
[¶5]

In January 2018, Limary was charged by indictment with

manslaughter (Class A), 17-A M.R.S. § 203(1)(A), and aggravated assault
(Class B), id. § 208(1)(A). He pleaded not guilty, and the matter proceeded to a
jury trial.

There was also evidence of bleeding from the nose and of blood having entered the stomach and
lungs.
1

2 From these facts, the jury could rationally have found beyond a reasonable doubt that Limary
committed the aggravated assault by “intentionally, knowingly or recklessly caus[ing] . . . [b]odily
injury to another that create[d] a substantial risk of death or extended convalescence necessary for
recovery of physical health.” 17-A M.R.S. § 208(1)(A) (2020); see 17-A M.R.S. § 35(1)-(3) (2020). The
sufficiency of the evidence of manslaughter is discussed below.

A.14

4

[¶6] Jury selection was held on May 13, 2019. The court refused to
include on the jury questionnaire three of the questions that Limary proposed
relating to self-defense and defense of another:
• “[I]f during the trial Mr. Limary generates evidence that he acted in
self-defense or in the defense of another in using physical force against
[the victim], the State must prove beyond a reasonable doubt that
Mr. Limary did not act in self-defense or defense of another. Would you
have any difficulty applying this burden on the State to disprove
self-defense or defense of another beyond a reasonable doubt?”
• “[W]ould you be willing to find Mr. Limary not guilty if he acted in
self-defense or in defense of another in using physical force against [the
victim]?”
• “[D]o you have any personal, religious, philosophical or other beliefs that
a person is never justified in using physical force against another human
being even if it is done in self-defense or defense of another?”
The court reasoned that it was not evident that a self-defense or
defense-of-another instruction would be generated by the evidence. The court
indicated that it would ask “whether or not jurors would have . . . any difficulty
in being a fair and impartial juror when fighting has occurred.”

The

questionnaire presented to the potential jurors included such a question and
also asked the jurors if they would be able to “base their verdict upon the
evidence and according to the law” without allowing “any feelings of bias,
prejudice, pity, anger, sympathy or other emotion [to] influence their verdict in

A.15

5

any way” and if they would be able to follow the law as instructed by the court
“even if [they] d[id] not agree with the law.”
[¶7] After the potential jurors completed the questionnaire, the court
conducted individual voir dire. Both the State and Limary agreed that the jury
that was ultimately selected was satisfactory.
[¶8] The jury trial was held over the course of the next four days. The
State offered testimony from eyewitnesses, a paramedic who treated the victim
on the day of his death, a police officer, and the State’s Chief Medical Examiner.
The State offered no evidence that would suggest that Limary had acted in
self-defense or defense of another. The medical examiner testified that, before
performing an autopsy of the victim, he reviewed hospital records summarizing
the multiple, serious fractures to the victim’s face. He also considered a
post-surgery x-ray showing the surgeons’ use of braces and other materials to
reconstruct the victim’s face. The autopsy revealed no hemorrhaging in the
area of the tracheostomy but extensive hemorrhaging in the sinuses, where the
victim had sustained the injuries and undergone surgery.

The medical

examiner concluded that the victim died of blood loss—specifically,
“hemorrhagic complications following multiple fractures of facial bones due to
the blunt force trauma of his head.”

A.16

6

[¶9] Limary moved for a judgment of acquittal on the manslaughter
charge, arguing that the victim’s surgery, which he claims was elective, broke
the chain of causation between his actions and the victim’s death such that the
jury could not find him guilty of manslaughter. See M.R.U. Crim. P. 29. The court
denied the motion.
[¶10]

Limary then offered an expert witness—the Chief Medical

Examiner for the State of Maryland—whose testimony differed from the State’s
Chief Medical Examiner’s mainly in identifying the source of the victim’s
bleeding as one or more veins at the site of the tracheostomy, not the site of
Limary’s injuries and surgery.3 Limary also offered his own testimony that he
had kicked the victim in the mouth to protect his friend because he thought the
victim was getting up to continue fighting and he wanted to get away from the
victim and his friends.
[¶11] In its instructions to the jury, the court provided instructions on
self-defense and defense of another. The jury found Limary guilty of both the
manslaughter and aggravated assault charges. After a sentencing hearing, the
court sentenced Limary to sixteen years in prison for manslaughter, with all but

Through cross-examination, it became clear that, when the expert prepared his report, he had
mistakenly believed that the tracheostomy tube had still been in the victim’s throat when he died.
3

A.17

7

forty-five months suspended and four years of probation. For the conviction of
aggravated assault, the court sentenced Limary to forty-five months in prison,
to be served concurrently with the manslaughter sentence. The court also
ordered Limary to pay $70 plus restitution of $2,519 to the Victims’
Compensation Fund. Execution of the sentence was stayed pending appeal. See
M.R.U. Crim. P. 38(a). Limary timely appealed. 15 M.R.S. § 2115 (2020);
M.R. App. P. 2B(b)(1).
II. DISCUSSION
[¶12] Limary challenges (A) the court’s denial of his request to pose
questions regarding self-defense and defense of another in the juror
questionnaire and (B) the sufficiency of the evidence that he caused the victim’s
death. We address each issue in turn.
A.

Juror Questionnaire
[¶13] Limary argues that he was deprived of a fair and impartial jury

because the questionnaire did not specifically inquire of the jurors whether
they were able to be fair and impartial regarding issues of self-defense and
defense of another. He contends that, unlike in State v. Burton, 2018 ME 162,
¶ 17 & n.2, 198 A.3d 195, the court did not include other questions regarding
self-defense or defense of another that would satisfy the concerns he raised.

A.18

8

[¶14] We review challenges to the conduct of voir dire for abuse of
discretion. State v. Roby, 2017 ME 207, ¶ 11, 171 A.3d 1157. “[T]he purpose of
the voir dire process is to detect bias and prejudice in prospective jurors, thus
ensuring that a defendant will be tried by as fair and impartial a jury as
possible.” Burton, 2018 ME 162, ¶ 15, 198 A.3d 195 (quotation marks omitted).
Thus, a trial court has considerable discretion over the scope of voir dire
provided that it is adequate to disclose facts that would reveal juror bias. Id.
[¶15] A court need not voir dire potential jurors in the exact manner
requested by a party as long as the process is sufficient to reveal bias. Roby,
2017 ME 207, ¶ 13, 171 A.3d 1157. Nor does a court abuse its discretion in
excluding questions “that have no relationship to a prospective juror’s
knowledge, bias, or predisposition, or that are intended to advocate a party’s
position regarding the facts or issues in dispute.” Roby, 2017 ME 207, ¶ 11, 171
A.3d 1157 (quotation marks omitted).
[¶16]

For purposes of the United States Constitution, “[t]o be

constitutionally compelled, . . . it is not enough that [voir dire] questions might
be helpful. Rather, the trial court’s failure to ask these questions must render
the defendant's trial fundamentally unfair.” Mu’Min v. Virginia, 500 U.S. 415,
425-26 (1991). For instance, the United States Supreme Court has determined

A.19

9

that voir dire questions about racial bias may be constitutionally required,
particularly in death penalty cases. See Turner v. Murray, 476 U.S. 28, 35-36
(1986); Rosales-Lopez v. United States, 451 U.S. 182, 190 (1981) (holding that,
although there is no presumption of racial bias, a court may be required to ask
voir dire questions about race if there are “substantial indications of the
likelihood of racial or ethnic prejudice affecting the jurors in a particular case”);
Aldridge v. United States, 283 U.S. 308, 314-15 (1931) (vacating a judgment of
conviction of murder, for which the defendant had been sentenced to death,
because the court failed to inquire of the jurors regarding racial bias).
[¶17] Consistent with this jurisprudence, the Maine Jury Instruction
Manual, widely used in civil and criminal jury trials in Maine, recommends that
the trial court consider specific voir dire in cases that “may involve particularly
sensitive issues such as race, religion, sexual preferences, interpersonal or
sexual violence, or child abuse.” Alexander, Maine Jury Instruction Manual § 2-4
at 2-6 (2019-2020 ed. 2019). The same resource recommends that during jury
voir dire the trial court “describe the basic law applicable to the case—in
criminal cases, the presumption of innocence, the State’s beyond a reasonable
doubt standard of proof, the defendant’s right to remain silent and not present
any evidence—and then ask the jurors if they were willing and able to accept

A.20

10

and apply the law to the case if they were selected as jurors, regardless of any
personal view they may have as to what the law should be.” Id. § 2-4E at 2-20.
In this case, all of these principles were addressed in the written jury
questionnaire.
[¶18] On the other hand, the Manual recommends against “[q]uestions
that ask about jurors’ knowledge or beliefs about the law and whether the
jurors agree with the law as stated by counsel.” Id. § 2-4F at 2-24 (“Voir dire is
not a mini bar exam for citizen jurors untrained in the law.”).
[¶19] The principles set forth in the Manual are consistent with, and
derive from, our own jurisprudence. “A voir dire of jurors becomes essential
when the potential for bias and prejudice is manifest.” State v. Barczak,
562 A.2d 140, 142 (Me. 1989). “Whether prejudice is manifest is a question of
fact for the trial court's determination and the scope of an examination is a
matter of discretion for the court.” Id. Based on the evidence anticipated in a
case, therefore, special inquiry of jurors during voir dire may be required with
respect to potential bias regarding matters such as race and sexual orientation,
pretrial publicity, and law enforcement connections. See State v. Bethea, 2019
ME 169, ¶¶ 15-19, 221 A.3d 563; State v. Turner, 495 A.2d 1211, 1212-13
(Me. 1985); State v. Lovely, 451 A.2d 900, 901-02 (Me. 1982); see also

A.21

11

Alexander, Maine Jury Instruction Manual § 2-4I at 2-31 to 2-32 (including
sample jury questions about pretrial publicity); cf. State v. Saucier, 2001 ME
107, ¶ 21, 776 A.2d 621 (affirming the denial of a motion to change venue in
part because voir dire questions about pretrial publicity had been posed to the
jury). Applying these principles, we held that jury voir dire was inadequate
when trial courts precluded inquiry into the nature of jurors’ associations with
prospective law enforcement witnesses, State v. O'Hara, 627 A.2d 1001, 1003
(Me. 1993), and jurors’ past experiences with violent crime, State v. Lowry,
2003 ME 38, ¶¶ 10-11, 819 A.2d 331.
[¶20] In many circumstances, it will be necessary for a defendant to
provide evidence of potential bias for voir dire to be required. See, e.g., State v.
Lowe, 2015 ME 124, ¶ 17, 124 A.3d 156 (holding that there was insufficient
evidence that pretrial publicity generated a potential for bias); see also United
States v. Robinson, 475 F.2d 376, 381 (D.C. Cir. 1973) (holding that, when no
recognized class of societal bias is involved, “it is incumbent upon the
proponent to lay a foundation for his question by showing that it is reasonably
calculated to discover an actual and likely source of prejudice, rather than
pursue a speculative will-o-the-wisp”).

A.22

12

[¶21] In a case in which the defendant was a patron of a gay bar,
however, we in effect took judicial notice of societal prejudice that compelled
inquiry on the subject of anti-gay bias.

See Lovely, 451 A.2d at 901-02

(acknowledging the undeniable “stigmatization of homosexuals in our society”
and concluding that the trial court was required to inquire about anti-gay bias
during jury voir dire when the evidence suggested that the defendant had been
a patron of a gay bar). The common theme in our jury voir dire jurisprudence
has been to require inquiry into jurors’ attitudes and experiences involving the
parties and witnesses or involving specific areas of evidence when there is a
more than speculative potential for juror bias.
[¶22] As to legal defenses and justifications—as opposed to questions
regarding potential evidence-based and status-based biases against parties or
expected witnesses—some courts in other states have decided that several
possible defenses and justifications, including self-defense, are sufficiently
“controversial” that they must be specifically explored during voir dire if
requested by a party. See Griffin v. State, 389 S.W.2d 900, 902 (Ark. 1965)
(self-defense); People v. Gregg, 732 N.E.2d 1152, 1163 (Ill. App. Ct. 2000)
(“Although the insanity defense upon which the defendant relied is a
well-recognized legal defense, it remains a subject of intense controversy and

A.23

13

has been described as ‘a defense which is known to be subject to bias or
prejudice.’” (quoting People v. Bowel, 488 N.E.2d 995, 999 (Ill. 1986))); People
v. Taylor, 489 N.W.2d 99, 101 (Mich. Ct. App. 1992) (per curiam) (self-defense
and the use of deadly force); cf. People v. Keenan, 758 P.2d 1081, 1123
(Cal. 1988) (holding that sequestered voir dire may be required in a death
penalty case as to “potentially controversial defenses” such as self-defense).
[¶23] The majority of the other courts that have considered whether a
requested self-defense question must be posed to potential jurors during
voir dire, however, hold that the determination is in the discretion of the trial
court based on the circumstances before it. See State v. Ebron, 975 A.2d 17,
26 & n.14 (Conn. 2009), overruled in part on other grounds by State v. Kitchens,
10 A.3d 942, 959 (Conn. 2011); see, e.g., Robinson, 475 F.2d at 380-81 (holding
that, although it may have been preferable for the trial court to inquire about
juror attitudes toward self-defense, the refusal to do so did not prejudice the
defendant’s substantial rights); Simpson v. State, 276 So. 3d 955, 958 (Fla. Dist.
Ct. App. 2019) (“This Court has recognized that no bright line rule can be
fashioned to determine the limits a trial court may impose on voir dire because
the complexities in each case are different.”); State v. Bedford, 529 N.E.2d 913,
920 (Ohio 1988) (“The scope of voir dire is within the trial court’s discretion

A.24

14

and varies depending on the circumstances of each case.”); see also Savo v. State,
382 P.3d 1179, 1182 (Alaska Ct. App. 2016) (vacating a conviction when the
court refused to allow requested voir dire when “the evidence already known
to the State provided support for th[e] claim of self-defense”).
[¶24] We have not identified any particular defense or justification as
being sufficiently “controversial” to warrant special inquiry during jury
voir dire whenever raised and cannot now conclude that the law regarding
defense of self or others is sufficiently controversial to justify elevating its
significance above the many other potential forms of bias that could, in theory,
be the subject of specific inquiry during jury voir dire. We are not persuaded
that there exists societal bias against the law of defense of self or others to the
extent that the constitutional right to a fair trial compels specific voir dire
inquiry during jury selection. See Commonwealth v. Fisher, 290 A.2d 262, 264
(Pa. 1972) (holding that there was no evidence of widespread bias against the
self-defense justification); Commonwealth v. Morales, 800 N.E.2d 683, 694
(Mass. 2003) (“There is no reason to suspect juror prejudice against claims of
self-defense and the defendant has not shown a substantial risk of juror bias
against such a defense.”).

A.25

15

[¶25] To the extent that we have addressed voir dire about self-defense,
we affirmed a trial court’s decision not to ask the following question regarding
self-defense in a murder case:
The law allows a person to use deadly force against another person
in self-defense. Do you have any beliefs or opinions that would
prevent you from applying the law of self-defense if the Court
provided such an instruction in this case?
Burton, 2018 ME 162, ¶ 7, 198 A.3d 195 (quotation marks omitted). We held
that the proposed question was not required to ensure impartiality and that the
question about self-defense that the court did ask—which stated that the law
allowed the use of deadly force in self-defense “in certain circumstances”—was
sufficient to reveal juror bias. Id. ¶17 & n.2 (emphasis omitted) (quotation
marks omitted). We affirmed the judgment based on the adequacy of the
questions asked to determine bias and the availability of individual voir dire of
the potential jurors. Id. ¶¶ 17 & n.2, 19.
[¶26] Unlike the jury question propounded by the court in Burton, the
three questions that Limary proposed regarding self-defense and defense of
another did not indicate that a person’s rights of self-defense and defense of
others are limited, see 17-A M.R.S. § 108(1)-(2) (2020),4 and, in that respect,

At the time of the crime at issue here, subsection 3 of 17-A M.R.S. § 108 (2020) had not yet taken
effect. See P.L. 2019, ch. 462, § 2 (effective Sept. 19, 2019).
4

A.26

16

they failed to provide accurate statements of the law. See Burton, 2018 ME 162,
¶ 17 n.2, 198 A.3d 195. The court was justified in declining to adopt them as
phrased. See Roby, 2017 ME 207, ¶ 14, 171 A.3d 1157.
[¶27] Although the court could well have included an appropriate
question regarding self-defense and defense of another based on Limary’s
contention that those issues would likely be generated at trial, the court did not
abuse its discretion in declining to include such a question. Limary did not
supply an evidentiary basis to establish societal bias against the law of
self-defense or defense of another, cf. Lowe, 2015 ME 124, ¶ 17, 124 A.3d 156;
it was not clear whether the evidence would generate either justification, which
increased the risk that the question would amount to improper pretrial
advocacy, see Roby, 2017 ME 207, ¶ 11, 171 A.3d 1157; and Limary’s concerns
regarding bias against the law of self-defense and defense of another were
addressed by the court’s questions about whether the jurors could follow all of
the court’s instructions, even if they disagreed with the law, including when
there had been fighting.5 Ultimately, Limary agreed that the jury that was
selected was acceptable, and there is no evidence of bias in any particular juror

The written jury questionnaire asked jurors whether they could follow the law in five different
questions.
5

A.27

17

or in the jury as a whole as a result of the court’s exclusion of the requested
instructions. Because the questions asked in the questionnaire were adequate
to reveal facts that would identify any bias against applying the existing law and
there is no evidence that Limary was deprived of an impartial jury, we will not
vacate the judgment on this basis. See Burton, 2018 ME 162, ¶ 15, 198 A.3d 195.
B.

Sufficiency of the Evidence of Causation
[¶28] Limary argues that, because the victim did not die until eighteen

days and two surgeries after the fight, the evidence cannot support a finding
that, but for Limary’s conduct, the death would not have occurred or that his
conduct was the legal cause of the victim’s death. He contends that the kick was
a “non-dispositive event” that did not, beyond a reasonable doubt, cause the
victim’s death because the victim had elective surgery and was released in
stable condition. He contends that there was no evidence that the kick caused
the bleeding that occurred on November 17, 2017.
[¶29] When a defendant challenges the sufficiency of the evidence to
support a conviction, we view the evidence in the light most favorable to the
State to determine whether a trier of fact rationally could find beyond a
reasonable doubt each element of the offense charged. Asaad, 2020 ME 11, ¶ 8,
224 A.3d 596. “The fact-finder may draw all reasonable inferences from the

A.28

18

evidence, and decide the weight to be given to the evidence and the credibility
to be afforded to the witnesses.” Id. (quotation marks omitted).
[¶30] “A person is guilty of manslaughter if that person . . . [r]ecklessly,
or with criminal negligence, causes the death of another human being.”
17-A M.R.S. § 203(1)(A).
evidence

that

he

Limary does not contest the sufficiency of the

acted

recklessly

or

with

criminal

negligence.

See 17-A M.R.S. § 35(3)(A), (C), (4)(A), (C) (2020) (defining “recklessly” and
“criminal negligence”). He argues only that the evidence did not permit the jury
to find beyond a reasonable doubt that his conduct caused the victim’s death.
[¶31] At the time of the fight, the statute governing causation stated,
“Unless otherwise provided, when causing a result is an element of a crime,
causation may be found where the result would not have occurred but for the
conduct of the defendant operating either alone or concurrently with another
cause, unless the concurrent cause was clearly sufficient to produce the result
and the conduct of the defendant was clearly insufficient.” 17-A M.R.S. § 33
(2017).6

The language regarding concurrent causation was amended, effective after the events at issue
here, to state the concurrent causation standard in the affirmative and in a separate paragraph, using
simplified language:
6

A.29

19

[¶32]

“Section 33 expressly imposes limitations on causative

responsibility and imposes standards similar to the common law standards of
proximate cause.” State v. Snow, 464 A.2d 958, 962 (Me. 1983). Thus, the
foreseeability of events or conditions contributing to the victim’s death
becomes relevant. See State v. Shanahan, 404 A.2d 975, 983 (Me. 1979); see also
United States v. Kilmartin, 944 F.3d 315, 331 (1st Cir. 2019) (“Proximate cause
is commonly understood as a function of the foreseeability of the harm.”). In
applying section 33, “the State must prove beyond a reasonable doubt not only
that the result would not have occurred but for the conduct of the defendant,
but also that the concurrent cause was not alone clearly sufficient to produce
the result and that the conduct of the defendant was not clearly insufficient to
produce the result.” Snow, 464 A.2d at 962; see also State v. Crocker, 431 A.2d
1323, 1325 (Me. 1981).

§ 33. Result as an element; causation
1. Unless otherwise provided, when causing a result is an element of a crime,
causation may be found when the result would not have occurred but for the conduct
of the defendant, operating either alone or concurrently with another cause.
2. In cases in which concurrent causation is generated as an issue, the defendant’s
conduct must also have been sufficient by itself to produce the result.
17-A M.R.S. § 33 (2020) (codifying P.L. 2017, ch. 432, § C-1 (emergency, effective July 4, 2018)); see
L.D. 1091, Summary (128th Legis. 2017) (“Subsection 2 contains a simplified test to be applied in the
event concurrent causation is generated as an issue. It provides that, when a defendant’s conduct
may have operated concurrently with another cause, in addition to satisfying the ‘but for’ test the
defendant’s conduct must have been sufficient by itself to produce the result . . . .”).

A.30

20

[¶33] The evidence plainly supported a jury finding that the victim
underwent surgeries to repair injuries caused by Limary’s kick and that those
surgeries would not have occurred but for Limary’s actions. The question is
whether the evidence was sufficient for the jury to find, beyond a reasonable
doubt, that the surgeries were not the sole cause of death and that Limary’s
actions were not “clearly insufficient” to cause the death. 17-A M.R.S. § 33. In
other words, we must decide whether the medical treatment undertaken
before the victim’s death was, as a matter of law, an intervening—rather than
merely a concurrent—cause of the victim’s death, negating criminal liability.
[¶34] We have not explicitly announced a rule regarding concurrent
versus intervening causes of death in the context of medical treatment of an
injured victim. In State v. Hachey, 278 A.2d 397, 400-01 (Me. 1971), however,
we affirmed a murder conviction when, although the victim received medical
care, including a tracheostomy, after the defendant shot him, the victim
ultimately died of infection: “Certainly [the jury] could find that the cause of the
septicemia was the entry of the bullet into the body of the decedent.” Id.7
We reached this holding at common law because no statute equivalent to section 33 was in force
until the adoption of the Maine Criminal Code in the mid-1970s. See P.L. 1975, ch. 499, § 1 (effective
Mar. 1, 1976) (codified at 17-A M.R.S.A. § 56 (1979)). As the bill’s comment reveals, the new statutory
language was taken from a proposed Massachusetts Code and based on the proposed Federal
Criminal Code. L.D. 314, § 1, cmt. to 17-A M.R.S.A. § 56 (107th Legis. 1975). The federal drafters
specifically noted that “[t]he major problem in enunciating such rules is presented by situations in
which two or more factors ‘cause’ the result.” Nat’l Comm’n on Reform of Fed. Criminal Laws, Final
7

A.31

21

[¶35] In other concurrent causation contexts, we similarly held that a
jury could find causation, despite other events or circumstances that may have
contributed to the victim’s death. For instance, we concluded that the evidence
was sufficient to support a manslaughter conviction when the medical
examiner testified that a wound inflicted by the defendant, which was
accompanied by other injuries not inflicted by the defendant, would eventually
have caused death if untreated.

State v. Morelli, 493 A.2d 336, 338-40

(Me. 1985); see also State v. Cumming, 634 A.2d 953, 954, 956-57 (Me. 1993)
(affirming a murder conviction when, although the pathologist could not
distinguish which injuries resulted from the victim leaping or being pushed
from the defendant’s car and which injuries resulted from him then driving
over her, the evidence could support a jury finding that the victim was alive
when she was run over); State v. Peaslee, 571 A.2d 825, 826-27 (Me. 1990)
(affirming a vehicular manslaughter conviction when the defendant’s
passenger was thrown from the vehicle and then run over by another car
because the victim would not have been in the road if not for the defendant’s

Report 32 (1971). The section was proposed as “a modified ‘but for’ test with a proviso that excludes
those situations in which the concurrent cause was clearly sufficient to produce the result and the
accused’s conduct clearly insufficient. . . . ‘But for’ is a minimal requirement for guilt; and resolving
that question permits focusing on the more important issue of culpability as to the result caused.” Id.

A.32

22

conduct); State v. Reardon, 486 A.2d 112, 116-18 (Me. 1984) (affirming a trial
court’s finding of causation in a felony murder case because it was reasonably
foreseeable that a sixty-seven-year-old robbery victim would have a heart
attack due to the stress of the robbery, his foreseeable attempt to chase the
perpetrator, and his agitated explanation of the robbery to police); Shanahan,
404 A.2d at 983 (holding that the victim’s foreseeable conduct in attempting to
wrest the gun away from the defendant was not, “as a matter of law, an
intervening cause relieving defendant of criminal responsibility for her death”).
[¶36] Other jurisdictions have more specifically held that when medical
treatment is provided to an injured victim, negligent treatment cannot be an
intervening cause “unless the doctor’s treatment is so bad as to constitute gross
negligence or intentional malpractice.”

1 Wayne R. LaFave, Substantive

Criminal Law § 6.4(f)(5) at 658-59 (3d ed. 2018). These courts have held that
gross negligence, which is not reasonably foreseeable, can be an intervening
cause if the fact-finder determines that the victim would have survived without
that gross negligence. See People v. Calvaresi, 534 P.2d 316, 319 (Colo. 1975)
(“[M]ere medical negligence can reasonably be foreseen. We hold, however,
that gross negligence is abnormal human behavior, would not be reasonably
foreseeable, and would constitute a defense, if, but for that gross negligence,

A.33

23

death would not have resulted.”); State v. Soucy, 653 A.2d 561, 565 (N.H. 1995)
(“The majority of jurisdictions . . . have adopted what has been termed a ‘sole’
cause test, under which malpractice constitutes a supervening cause only if it
was the ‘sole’ cause of the death.”); cf. State v. Jackson, 223 N.W.2d 229, 233-34
(Iowa 1974) (holding, with respect to ordinary negligence, that “[a]n injury is
the proximate cause of resulting death although the deceased would have
recovered had he been treated by the most approved surgical methods or by
more skillful methods, or with more prudent care”).
[¶37]

Applying these generally accepted standards, courts have

concluded that a jury could find causation despite interceding medical
treatment when there was no evidence that the medical care was grossly
negligent, see People v. Saavedra-Rodriguez, 971 P.2d 223, 228-29 (Colo. 1998);
when the wound was so dangerous on its own that the medical treatment could
not have been the sole cause of death, see State v. Shabazz, 719 A.2d 440, 444-45
(Conn. 1998); Wright v. State, 374 A.2d 824, 827, 828-29 (Del. 1977); State v.
Surbaugh, 786 S.E.2d 601, 607-08, 616 (W. Va. 2016); and when nonnegligent
emergency treatment caused some bleeding but not enough to cause the
victim’s death, Neal v. State, 722 S.E.2d 765, 768 (Ga. 2012).8
In contrast, a court found that the evidence was insufficient to establish causation beyond a
reasonable doubt when the victim was stabbed in the stomach and during surgery, the surgeons
8

A.34

24

[¶38] Here, there is no evidence of medical negligence—much less gross
medical negligence—nor any evidence that the surgery was for any purpose
other than to treat the injuries inflicted on the victim by Limary. Cf. id. Although
there was evidence that the victim could have deferred the surgery, the surgery
was entirely foreseeable and was not cosmetic; the medical examiner opined
that the stability of the victim’s face was at risk and that, without surgery, he
would be in danger of bleeding or of the bones in his face healing badly and
impeding his breathing. The medical examiner also testified that a bone shard
could have severed multiple blood vessels and caused the type of excessive
sinus bleeding that he concluded had occurred here. Given this evidence, and
the medical examiner’s specific determination that the victim died of
“hemorrhagic complications following multiple fractures of facial bones due to
the blunt force trauma of his head,” the jury could rationally find that the
surgery was not the sole cause of the bleeding and that the damage inflicted

discovered an incarcerated hernia, which they proceeded to correct after the initial surgery. People
v. Stewart, 358 N.E.2d 487, 489-90 (N.Y. 1976). During that second surgical procedure, the victim
went into cardiac arrest. Id. at 490. The medical examiner testified that the cardiac arrest could have
been caused by the shock of the stab wound or by the physical strain of either operation; he also
testified that the anesthesiologist’s report and surgeons’ report were contradictory about whether
the anesthesiologist had failed to deliver oxygen to the victim, which alone could have caused the
victim’s death. Id. at 490-91. The court concluded that it could not be ruled out as a possibility that
the hernia operation had caused the victim’s death, “certainly not beyond a reasonable doubt.” Id.
at 492.

A.35

25

through the kick was not “clearly insufficient” to cause death. See 17-A M.R.S.
§ 33.
[¶39] Based on the evidence in the record, the jury could rationally find
beyond a reasonable doubt that (1) the victim’s death “would not have occurred
but for the conduct of the defendant, operating either alone or concurrently
with another cause”; and (2) the medical care was not “clearly sufficient,” and
the kick to the victim’s face was not “clearly insufficient,” to cause the victim’s
death. 17-A M.R.S. § 33; see Calvaresi, 534 P.2d at 319; Soucy, 653 A.2d at 565.
We therefore affirm the judgment of conviction.
The entry is:
Judgment affirmed.

Hunter J. Tzovarras, Esq., Bangor, for appellant Jonathan Limary
Aaron M. Frey, Attorney General, and Katie Sibley, Asst. Atty. Gen., Office of the
Attorney General, Augusta, for appellee State of Maine
Aroostook County Unified Criminal Docket docket number CR-2018-12
FOR CLERK REFERENCE ONLY

A.36

MAINE SUPREME JUDICIAL COURT
Decision:
2020 ME 83
Docket:
Aro-19-329
Submitted
On Briefs: April 14, 2020
Decided:
June 4, 2020
Revised:
June 23, 2020
Panel:

Reporter of Decisions

MEAD, GORMAN, JABAR, HUMPHREY, HORTON, and CONNORS, JJ.

STATE OF MAINE
v.
JONATHAN LIMARY
ERRATA SHEET
The Court’s opinion certified on June 4, 2020, is revised to correct an
error.

In paragraph 27, at the end of the third sentence, “requested

instructions” is replaced with “requested questions.”
The original opinion on the Court’s website has been replaced with the
opinion as revised.

A.37

A.38

MAINE SUPREME JUDICIAL COURT

Sitting as the Law Court

No. ARO-19-329
STATE OF MAINE
v.
JONATHAN LIMARY

ON APPEAL FROM AROOSTOOK UNIFIED CRIMINAL
DOCKET (CARIBOU)

Brief of Appellant,
Jonathan Limary
Hunter J. Tzovarras
Bar No. 004429
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207) 941-8443
hunter@bangorlegal.com

A.39

TABLE OF CONTENTS
PROCEDURAL HISTORY

1

STATEMENT OF FACTS

4

ISSUES ON APPEAL

9

SUMMARY OF ARGUMENTS

10

LAW AND ARGUMENT

11

1. The court denied Mr. Limary a fair trial because he was unable
to inquire as to potential jurors bias or predisposition against the
law of self-defense or defense of another.

11

2. Mr. Limary did not cause Mr. Bragdon's death as a matter
of law.

17

CONCLUSION

25

CERTIFICATION OF SERVICE

27

A.40

TABLE OF AUTHORITIES

Burrage v. U.S., 134 S. Ct. 881 (2014)

19, 20

Paroline v. United States, 572 U.S. 434 (2014)

20

State v. Bickart, 963 A.2d 183 (Me. 2009)

17

State v. Burton, 198 A. 3d 195 (Me. 2018)

15

State v. Carey, 214 A. 3d 488 (Me. 2019)

12

State v. Cook, 2 A. 3d 333 (Me. 2010)

17

State v. Crocker, 431 A.2d 1323 (Me. 1981)

19

State v. Hachey, 278 A. 2d 397 (Me 1971)

24

State v. Lowry, 2003 ME 38, 819 A.2d 331

12

State v. Lovely, 451 A.2d 900 (Me. 1982)

12

State v. Morelli, 493 A. 2d 336 (Me. 1985)

23

State v. Roby, 171 A. 3d 1157 (Me. 2017)

12, 13

State v. Simons, 2017 ME 180, 169 A.3d 399

12

A.41

I.

PROCEDURAL HISTORY
On January 19, 2018. Jonathan Limary was indicted on the charges

of manslaughter and aggravated assault stemming from a fight
involving with Jean Bragdon and others on October 30, 2017. Mr.
Bragdon died 18 days later on November 17, 2017. Jonathan was 22
years old at the time of charge and pleaded not guilty.
A jury was selected on May 13, 2019. The defense requested the
court include questions related to self-defense and defense of another
on a written questionnaire the court provided to the jury pool. (Jury
Selection Tr. at p. 2)
The defense requested the court ask the jury the following
questions:

If during the trial Mr. Limary generates evidence that he acted
in self-defense or in the defense of another in using physical
force against Mr. Bragdon, the State must prove beyond a
reasonable doubt that Mr. Limary did not act in self-defense or
defense of another. Would you have any difficulty applying this
burden on the State to disprove self-defense or defense of
another beyond a reasonable doubt?
(Id. at 2-3).

PageA.42
1 of 27

Would you be willing to find Mr. Limary not guilty if he acted
in self-defense or in defense of another using physical force
against Mr. Bragdon?
(Id. at 3).
Do you have any personal, religious, philosophical or other
beliefs that a person is never justified in using physical force
against another human-being even if it is done in self-defense or
defense of another?
(Id.).
The defense proffered to the court that both the issues of selfdefense and defense of another would be generated by the evidence at
trial.
As far as the proffer what the evidence will show … is that there
was … a fight between Mr. Bragdon and, um, a friend of Mr.
Limary's, Andrew Geer, that Mr. Bragdon had, um, sent
messages to Mr. Greet that he wanted to fight and that he was
going to hurt , um, Mr. Greet as well as girls, girlfriends that Mr.
Limary and Mr. Greer had. And Mr. Limary was aware of these
text messages. They then drove to a location that Mr. Bragdon
had arranged for then to fight at, which was a parking lot.

When they arrived at the parking lot, Mr. Bragdon came running
across the street with another friend, or across the parking lot,
and then began engaging in a fight between Mr. Geer and Mr.
Bragdon. mr. Limary was then engaged in a physical altercation
with a friend of Mr. Bragdon's. At some point, other individuals
started to come across the parking lot from the area where Mr.

PageA.43
2 of 27

Bragdon had run from. Um, this caused concern to people that
were sitting in the vehicle that had arrived with Mr. Geer and
Mr. Limary. They got out of the car and started telling, warning
Mr. Geer and Mr. Limary that other people were coming.
At some point, Mr. Geer and Mr. Bragdon ended up, um, on the
ground. mr. Bragdon was getting up off—according to the State's
witness, Mr. Geer, in one of his statements, is that Mr. Bragdon
was getting up off the ground coming after Mr. Geer to fight
some more when Mr. Limary kicked him once in the face.
(Id. at 3-5). The State objected to the requested questions. (Id. at 5-6).
The court denied the request to provide any of the three questions
on self-defense or defense of another requested by Mr. Limary. (Id. at
7-8). The court indicated it will "give a voir dire question that inquires
of, um, whether or not jurors would have, um, any difficulty in being a
fair and impartial juror when fighting has occurred." The court
provided no voir dire questions mentioning the law of self-defense or
defense of another.
At the close of the voir dire process, the Defendant again renewed
his objection to not asking the questions related to self-defense and
defense of another. (Id. at 205).

PageA.44
3 of 27

A four day jury trial followed. At the close of the evidence, the
court instructed the jury on the law of self-defense and the defense of
another. The jury returned verdicts of guilty on both charges.
On June 20, 2019, the court imposed a sentence of 16 years all but 45
months to serve and 4 years of probation on the manslaughter charge,
and concurrent 45 months on the aggravated assault charge.
This appeal was filed on July 1, 2019.

II. STATEMENT OF FACTS
On October 29, 2017, Andrew Geer, Jonathan Limary and their
friends are hanging out at Jonathan's apartment with his roommates
watching sports. (Tr. Vol. 1 at p. 60-61). Andrew begins a Facebook
argument with Jean Bragdon. (Id. at 61). Jean is "very hostile" in his
messages to Andrew. (Id. at 63). It turns into a phone argument yelling
back and forth at each other. (Id. at 64). Jonathan comes out of his
bedroom during this point. (Id.). Jon becomes involved in the argument
after Jean makes comments threatening their girlfriends. (Id.). Jean is

PageA.45
4 of 27

threatening everyone. (64). Jonathan gets on the phone with Jean and
argues with him. (Id. at 64-65).
The parties agree to meet at the Save-A-Lot parking lot. (Id. at 65).
Andrew and Jonathan, and three other friends, go to the Save-A-Lot.
(Id. at 67). They ultimately meet in the parking lot of Pine Health Center
in Presque Isle. (Id. at 70). Once they arrive, Jean comes running across
the parking lot with his arm cocked back and towards Andrew. (Id.).
One of Jean's friends, Norm, comes running into the parking lot with
him. (Id.). Jean and Norm are in their 40s. Jonathan and Andrew are 22
and 18 respectively.
Jonathan and Norm start jostling while Jean and Andrew start
fighting in the parking lot. (Id. at 72-73). Eventually, the fight takes Jean
and Andrew to the ground. (Id. at 73, 74). As Jean is getting up off the
ground, Jonathan kicks Jean once in the face. (Id. at 73). The entire fight
lasted about two minutes. (Id.). Jonathan and his group of friends get
back in the truck and drive away. (Id. at 82-83).
Jonathan testified that during the fighting, Jonathan can see three
other males coming over to the area. (Tr. Vol. 4 at p. 25). Jonathan thinks

PageA.46
5 of 27

they were coming to "step into the fight". (Id. at 25). Drew is yelling for
them to not come any closer as he has Jean in a headlock on the ground.
(Id. at 26). Jonathan walks over towards Drew and Jean. (Id.). When he
moves within five feet of them, Drew lets go of Jean. (Id. at 27). Jean
immediately rolls over and starts to get up. (Id. at 27-28). Jean's moving
fast to stand back up. (Id. at 28). Jonathan believes Jean is getting back
up to fight more. (Id.). Jonathan wants to get out there feeling his
friends and self are now out numbered now. (Id.). Jonathan kicks Jean
once in the head as Jean is getting back up. (Id. at 29). He kicks Jean to
"ensure that myself and the others with me could leave without
harm." (Id.). Jonathan is wearing a pair of Vans denim-knitted shoes at
the time he kicks Jean. (Id. at 30).
As a result of the kick, Jean suffers injuries and fractures to his
facial area. He is taken to Cary Medical Center at approximately 1:50
a.m. on October 30, 2017 and discharged in stable condition at 4:45 a.m.
that same day. (Tr. Vol. 3 at p. 83-85). Later on October 30, 2017, Jean
returns to Cary Medical Center at approximately 2:40 p.m. because he is
feeling dizzy. (Id. at 89). He is admitted for observation. (Id. at 90). He is

PageA.47
6 of 27

discharged in stable condition on November 2, 2017 at approximately
10:56 a.m. (Id.).
On November 8, 2017, Jean returns to Cary Medical Center for pain
medication. (Id. at 93). The doctor who previously treated Jean on the
prior dates indicates his injuries looked to be improving. (Id. at 94). Jean
is provided pain medication and sent home.
On November 9, 2017, Jean travels to EMMC for a consultation
with Dr. Crowley for facial surgery. (Id. at 96). Following the
consultation, Jean decides to have the surgery the next day. (Id. at 96,
97). The surgery was not necessary to save Jean's his life. (Id. at 96-97).
The surgical consent form entered by Jean lists death as one possible
risk of surgery. (Id. at 101-101).
On November 10, 2017, Jean undergoes two surgeries to repair the
injuries in his face suffered on October 30, 2017. (Id. at 102). Following
surgery, he remains in the hospital for one week. (Id. at 104). On
November 17, 2017, he is discharged from EMMC at approximately 1:30
p.m. and returns home to Caribou. (Id. at 105). At approximately 10:30

PageA.48
7 of 27

p.m. that evening, Jean notices some blood on a bandage on his neck
and bleeds to death within minutes. (Id. at 107).
Dr. Mark Flomenbaum determined Jean died from bleeding to
death on November 17, 2017. (Id. at 72, 75).

Dr. Flomenbaum

determined the area of the bleeding to be in the sinuses.1 (Id. at 64-67).
The bleeding was found in the area where the surgery occurred. (Id. at
69). Dr. Flomenbaum could not determine the exact source of bleeding.
(Id. at 70-71). He opined the cause of death was "hemorrhagic
complications following multiple fractures of facial bones due to the
blunt force trauma to his head." (Id. at 78).

1

At trial, Dr. David Fowler, the medical examiner for the State of Maryland,
testified the site of the bleeding was in the neck where the tracheotomy tube
had been recently removed.

PageA.49
8 of 27

III. ISSUES ON APPEAL.

1.

Did the court deny Jonathan Limary a fair trial by denying the

defense's request to ask potential jurors questions related to bias or
predisposition against the law of self-defense or defense of another
during the jury selection process?

2.

Did Jonathan Limary cause the death of Jean Bragdon as a matter of

law?

PageA.50
9 of 27

IV. SUMMARY OF ARGUMENTS

1. The trial court erred in failing to ask the potential jurors any
questions relating to the law of self-defense or defense of another. The
Defendant proposed three questions to the court to ask during the voir
dire process that were designed to detect any bias or prejudice in
applying the law of self-defense or defense of another. The court
declined to ask all three proposed questions. At the close of evidence,
the court instructed the jury on the law of self-defense and defense of
another. Mr. Limary was denied a fair trial because it is unknown
whether one or more of the jurors were biased or predisposed against
these defenses because not inquiry was made during the selection
process on this crucial issue.
2. The evidence was insufficient as a matter of law to establish
Jonathan Limary caused Jean Bragdon's death. Mr. Bragdon was
released from the hospital in stable condition three times after the
injuries suffered in the fight. Mr. Bragdon elected to have a surgery that
was not required to save his life. After being discharged from the

PageA.51
10 of 27

surgery and returning home, Mr. Bragdon bled to death. This bleeding
occurring 17 days after the fight with Mr. Limary was not caused by Mr.
Limary and cannot be held responsible for it as a matter of law.

V.

LAW AND ARGUMENT

1.

The court denied Mr. Limary a fair trial because he was unable to
inquire as to potential jurors bias or predisposition against the
law of self-defense or defense of another.
Jonathan Limary was denied a trial by a fair and impartial jury

because he was unable to inquire as to potential juror's bias or prejudice
as it relates to self-defense or defense of another during the jury
selection process. The defense raised self-defense and defense of
another throughout the case. The court instructed the jury on these
defenses. It cannot be determined the jury decided these issues fairly
and impartially because no voir dire questions were asked by the court
as to potential basis or prejudice when it comes to such defenses.

PageA.52
11 of 27

The Maine and federal constitutions guarantee that criminal
defendants shall have the right to an impartial jury trial. U.S. Const.
amend. VI; Me. Const. art. I, § 6.
The Court reviews challenges to the trial court's voir dire for abuse
of discretion." State v. Lowry, 2003 ME 38, ¶ 7, 819 A.2d 331; State v.
Simons, 2017 ME 180, ¶ 19, 169 A.3d 399. Any error is considered
harmful. "Because of the constitutional rights at stake, however, if we
do discern an error that affects the right to an impartial adjudicator, that
error cannot be regarded as harmless." State v. Carey, 214 A. 3d 488, 493
(Me. 2019).
"[T]he purpose of the voir dire process is to detect bias and
prejudice in prospective jurors, thus ensuring that a defendant will be
tried by as fair and impartial a jury as possible." State v. Roby, 171 A. 3d
1157, 1160 (Me. 2017); see also State v. O'Hara, 627 A.2d 1001, 1003 (Me.
1993); State v. Lovely, 451 A.2d 900, 901 (Me. 1982).
In this case, Mr. Limary presented three questions for the court to
ask the prospect jurors during the voir dire process designed to detect

PageA.53
12 of 27

an inherent bias or prejudice as it relates to the law of self-defense or
defense of another.
1. If during the trial Mr. Limary generates evidence that he acted in
self-defense or in the defense of another in using physical force
against Mr. Bragdon, the State must prove beyond a reasonable
doubt that Mr. Limary did not act in self-defense or defense of
another. Would you have any difficulty applying this burden on the
State to disprove self-defense or defense of another beyond a
reasonable doubt?"
2. Would you be willing to find Mr. Limary not guilty if he acted in
self-defense or in defense of another in using physical force against
Mr. Bragdon?"
3. Do you have any personal, religious, philosophical or other
beliefs that a person is never justified in using physical force
against another human-being even if it is done in self-defense or
defense of another?"

If the prospect juror answered "yes" to question one, or "no" to either
question 2 or 3 a potential basis or prejudice would be discovered. At
that time, Mr. Limary could move to strike for cause the potential juror,
or later exercise a preemptory strike. Absent the above questions, Mr.
Limary had no way of determining if any of the potential jurors were
bias or prejudice to the defenses likely to be raised (and raised)
throughout the trial.

PageA.54
13 of 27

The questions proposed by the defense went directly to the
potential juror's bias or predisposition in being able to decide the case
fairly and impartially. This Court has upheld the exclusion of
"[q]uestions that have no relationship to a prospective juror's
knowledge, bias, or predisposition, or that are intended to advocate a
party's position regarding the facts or issues in dispute, are improper."
Roby, 171 A. 3d at 1160. Mr. Limary's proposed questions went directly
to the bias or predisposition in applying the law of self-defense or
defense of another in Maine. The questions did not advocate Mr.
Limary's position that he acted in self-defense, but asked whether the
juror's were willing and able to follow the law on self-defense, or had
any predisposition against applying the law of self-defense.
The voir dire process failed to disclose jurors with potential basis
towards self-defense or defense of another. This Court has upheld the
selection process when the lower "court ensured that the voir dire
process was sufficient to disclose facts that would reveal juror bias." Id
(internal quotations and citations omitted). Here, the trial court never
informed the jury pool at all about the law of self-defense or defense of

PageA.55
14 of 27

another, or asked any questions addressing any bias or prejudice when
it comes to these defenses. Without asking such questions, it is
impossible to know whether any of the jurors held an inherent
predisposition against such defenses.
The Court in State v. Burton, 198 A. 3d 195 (Me. 2018), found no
error in declining to ask some questions regarding self-defense when
other questions were asked by the court relating to self-defense. "We
note in particular that the written questionnaire used by the court
addressed the principle of self-defense in verbiage that was almost
identical to Burton's proposed question, but that stated the law more
accurately: 'The law allows in certain circumstances a person to use
deadly force against another person in self-defense or in defense of
premises. Do you have any beliefs or opinions that would prevent you
from applying the law of self-defense or defense of premises if the
Court provided such an instruction in this case?' Burton, at Fn 2
(internal citations omitted).
The court in this matter failed to ask any question similar to the
question asked in the Burton case. The first of the three proposed

PageA.56
15 of 27

questions submitted by Mr. Limary was similar to the question asked in
Burton.
Without the ability to inquire into whether the jurors can fairly and
impartially apply the law of self-defense and defense of another to this
case, Mr. Limary was denied a fair trial. The trial focused extensively on
the issue of self-defense and defense of another. It was the main issue at
trial, along with causation of the death. At the close of evidence, the
court provided the jury several pages of instructions on these defenses.
There is no way of knowing whether some or all of the jurors were bias
or predisposed against such defenses because the court never asked
during the jury selection process.
Therefore, the Court should find the trial court abused its discretion
in denying such voir dire and grant a new trial.

PageA.57
16 of 27

2.

Mr. Limary did not cause Mr. Bragdon's death as a matter
of law.

This evidence is insufficient as a matter of law to prove Mr.
Limary's conduct on October 30, 2017 caused Mr. Bragdon's death on
November 17, 2017." When a defendant alleges that evidence is
insufficient t support his conviction, we review the evidence in the light
most favorable to the State to determine whether the trier of fact
rationally could have found beyond a reasonable doubt every element
of the offense charged." State v. Bickart, 963 A.2d 183 (Me. 2009).
Evidence that is "too tenuous for a rational fact-finder to determine that
it is almost certainly true " cannot support a conviction. State v. Cook, 2
A. 3d 333, 339 (Me. 2010).
Viewing the evidence in a light most favorable to the State, Mr.
Bragdon died on November 17, 2017 after being discharged from the
hospital and bleeding to death in the sinus/nasal area. This is the area
in which he was kicked by Mr. Limary on October 30, 2017, and had
surgery to repair on November 10, 2017. The State's evidence did not
indicate the kick from October 30, 2017 caused the bleeding on

PageA.58
17 of 27

November 17, 2017. Rather, the State's evidence was the bleeding
occurred in the same area 18 days later, and several days after surgery.
In order to be guilty of the charge of manslaughter, Mr. Limary had
to cause the death of Mr. Bragdon by acting either recklessly or with
criminal negligence. 17-A MRSA § 203.
Maine law defines "causation" as follows: "Unless otherwise
provided, when causing a result is an element of a crime, causation may
be found when the result would not have occurred but for the conduct
of the defendant, operating either alone or concurrently with another
cause. In cases in which concurrent causation is generated as an issue,
the defendant’s conduct must also have been sufficient by itself to
produce the result." 17-A M.R.S.A. § 33. The evidence is insufficient to
establish Mr. Limary's kick on October 30, 2017 caused Mr. Bragdon's
death on November 17, 2017.
In every case where causing a result is an element of the crime, the
state must prove beyond a reasonable doubt the result would not have
occurred but for defendant’s conduct; that is, state may prove either that
defendant’s conduct, operating alone, produced results or that

PageA.59
18 of 27

defendant’s conduct, or operating in conjunction with the concurrent
cause of condition, produced the result. State v. Crocker, 431 A.2d 1323
(Me. 1981).
The question in this case is whether the evidence was sufficient to
prove Mr. Limary's conduct on October 30, 2017 in kicking Mr. Bragdon
caused his death on November 17, 2017. In other words, would Mr.
Bragdon have died on November 17, 2017 but for Mr. Limary kicking
him on October 30, 2017.
Mr. Limary's conduct on October 30, 2017 could not have been the
but for cause of Mr. Bragdon's death. Rather, Mr. Bragdon's death
resulted from a bleed on November 17, 2017. There was no evidence
presented this bleed occurred on November 17, 2017 because Mr.
Limary kicked Mr. Bragdon 18 days prior.
Supreme Court precedent on causation supports a finding that Mr.
Limary was not the but for, or legal, cause of Mr. Bragdon's death. In
Burrage v. U.S., 134 S. Ct. 881 (2014), the Court analyzed the causation
element of when "death or serious bodily injury results from the use of
such substance", under 21 U.S.C. § 841(a)(1), (b) (1)(A)-(C).

PageA.60
19 of 27

The law has long considered causation a hybrid concept,
consisting of two constituent parts: actual cause and legal
cause. H. Hart & A. Honoré, Causation in the Law 104 (1959).
When a crime requires "not merely conduct but also a specified
result of conduct," a defendant generally may not be convicted
unless his conduct is "both (1) the actual cause, and (2) the
`legal' cause (often called the `proximate cause') of the result." 1
W. LaFave, Substantive Criminal Law § 6.4(a), pp. 464-466 (2d
ed. 2003) (hereinafter La-Fave); see also ALI, Model Penal Code
§ 2.03, p. 25 (1985).
Id. at 887.
The Model Penal Code reflects this traditional understanding;
it states that '[c]onduct is the cause of a result' if 'it is an
antecedent but for which the result in question would not
have occurred.' § 2.03(1)(a). That formulation represents 'the
minimum requirement for a finding of causation when a crime
is defined in terms of conduct causing a particular result.
Id. at 888.
But-for causation usually inures to the benefit of the criminal
defendant and is motivated by the rule of lenity. Burrage, 571 U.S. at
216. The Court has refused to adopt “less demanding” causation tests,
such as, “[t]he defendant’s conduct is a cause of the event even if it was
a…substantial factor in bringing it about,” id. at 215, or “a wrongdoer’s
conduct, though alone insufficient to cause the plaintiff’s harm, is,
when combined with the conduct by other persons, more than sufficient

PageA.61
20 of 27

to cause the harm,” Paroline v. United States, 572 U.S. 434, 451-52 (2014).
If a statute requires but-for causation, then it will not be enough for the
State to prove that the defendant’s actions merely “contributed to” the
death. Burrage, 571 U.S. at 216.
The State's evidence in this case, at best, establishes Mr. Limary's
kick was a substantial or contributing factor in causing death—either
that Mr. Bragdon would not have chosen to have the surgery if not
kicked, or the kick combined with the surgery caused the death. This
level of causation is insufficient as a matter of law to prove but for
causation.
While Mr. Limary's kick on October 30, 2017 caused the facial
injuries that evening, it was not the cause of death on November 17,
2017, and played a nonessential contributing role. The Court in Burrage
provided the following analogy for the but for causation requirement.

This but-for requirement is part of the common understanding of
cause. Consider a baseball game in which the visiting team's leadoff
batter hits a home run in the top of the first inning. If the visiting
team goes on to win by a score of 1 to 0, every person competent in
the English language and familiar with the American pastime

PageA.62
21 of 27

would agree that the victory resulted from the home run. This is so
because it is natural to say that one event is the outcome or
consequence of another when the former would not have occurred
but for the latter. It is beside the point that the victory also resulted
from a host of other necessary causes, such as skillful pitching, the
coach's decision to put the leadoff batter in the lineup, and the
league's decision to schedule the game. By contrast, it makes little
sense to say that an event resulted from or was the outcome of
some earlier action if the action merely played a nonessential
contributing role in producing the event. If the visiting team wound
up winning 5 to 2 rather than 1 to 0, one would be surprised to read
in the sports page that the victory resulted from the leadoff batter's
early, non-dispositive home run.

Id. at 888.
Here, the kick on October 30, 2017 was a non-dispositive event. It
did not result in Mr. Bragdon's death because he was treated at the
hospital and discharged later that day (and twice more) as stable. The
decision to have the surgery on November 9 and the performance of the
surgery, and the bleeding on November 17, 2017 are all events that
contributed to the final outcome of death.
The State may argue that Mr. Bragdon would not have had the
surgery on November 10, 2017 but for Mr. Limary kicking him. The
Defendant would agree. However, the kick being the but for cause of

PageA.63
22 of 27

the surgery is not the same as it being the but for cause of the death.
The surgery was elective. It was not emergency surgery necessary to
save or stabilize Mr. Bragdon's life. The surgery then becomes an
intervening event Mr. Bragdon elected to undergo.
In State v. Morelli, 493 A. 2d 336 (Me. 1985), the defendant was
convicted of manslaughter after the victim was shot several times, with
the defendant shooting him once in the pelvic. The Court found the
gunshot wound to the pelvic was sufficient to prove causation of the
death, even if the other gunshot wounds could have caused death. "Dr.
Roy further testified that the pelvic wound, included by him as a cause
of death, would not necessarily be fatal immediately. He stated,
however, it would cause death eventually if untreated." Id. at 339. "The
evidence also provides a rational basis for the jury to conclude that the
wound in the lower abdomen as a concurrent cause, was not clearly
insufficient to cause death. The medical witness testified that the
wound would cause death." The important distinction between Morelli
and this case is the medical examiner never testified the facial injuries
caused by the kick would be fatal eventually if left untreated, or that the

PageA.64
23 of 27

bleeding on November 17, 2017 was the result of the kick on October 30,
2017.
In State v. Hachey, 278 A. 2d 397 (Me 1971), the defendant was
convicted of murder after shooting the victim, who died 4 days later
from an infection associated with the gunshot wound. In that case, the
medical examiner testified, "'I think he died of infection.' He explained
that the effect of the bullet passing through the abdomen and the
stomach was to create a condition which produced an infection. Dr.
McEvoy concurred with this opinion and attributed the sepsis and
other conditions resulting in death to the original damage caused by the
passage of the bullet through the abdomen." Id. at 400.
Dr. Eyerer removed the bullet, noting it had severed the spinal
cord, and gave it to a police officer. The Jury had every right to
conclude from all the medical testimony in the case that, had this
shooting not occurred, Mr. Buzzell would not have died. Certainly
they could find that the cause of the septicemia was the entry of the
bullet into the body of the decedent. The law is well settled that a
Defendant is responsible even where the act was not the immediate
cause of death if an intervening cause was the natural result of the
wrongful act.
Id. at 401.

PageA.65
24 of 27

Unlike in Hachey, there is no evidence in this case the bleeding on
November 17, 2017 was caused by the kick 18 days earlier , or was a
natural cause of the kick. Mr. Bragdon's decision to have surgery on
November 9, 2017 is not the sort of "natural result" contemplated in
Hachey. The natural result there was an infection resulting from the
bullet going through the body—a matter entirely beyond the victim's
control. The decision to have surgery here was a conscious choice. It is
also notable that the victim in Hachey died in the hospital 4 days after
the gunshot, without ever being discharged, and after having suffering
an infection directly related to the bullet that was fired.
Therefore, the Court should find the evidence was insufficient to
prove Mr. Limary caused Mr. Bragdon's death and vacate the
manslaughter conviction.

V.

CONCLUSION
For all of the above reasons, it is respectfully requested the Court

vacate the convictions in this matter.

PageA.66
25 of 27

Dated: December 13, 2019

Respectfully Submitted,
______________________
Hunter J. Tzovarras
Bar No. 004429
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207) 941-8443
hunter@bangorlegal.com

PageA.67
26 of 27

CERTIFICATION OF SERVICE
I hereby certify a copy of the above motion was sent on December
13, 2019 to: Attorney General Office, 6 State House Station, August,
Maine 04333, and AAG Donald Macomber (via email copy).

__________________________
Hunter J. Tzovarras
Bar No. 4429

PageA.68
27 of 27

MAINE SUPREME JUDICIAL COURT

Sitting as the Law Court

No. ARO-19-329
STATE OF MAINE
v.
JONATHAN LIMARY

ON APPEAL FROM AROOSTOOK UNIFIED CRIMINAL
DOCKET (CARIBOU)

APPENDIX

Appellant,
Jonathan Limary
Hunter J. Tzovarras
Bar No. 004429
88 Hammond Street, Ste 321
Bangor, Maine 04401
(207) 941-8443
hunter@bangorlegal.com

A.69

TABLE OF CONTENTS
DOCKET RECORD

1

ORDER ON VOIR DIRE QUESTIONS

9

WRITTEN JURY QUESTIONNAIRE

11

INDICTMENT

20

A.70

STATE OF MAINE
vs
JONATHAN LIMARY
174 OGREN ROAD
PRESQUE ISLE ME 04769

CRIMINAL DOCKET
AROOSTOOK, ss.
Docket No AROCD-CR-2018-00012
DOCKET RECORD

DOB: 08/15/1995
Attorney:
HUNTER TZOVARRAS
PELLETIER FAIRCLOTH BRACCIO LLC
88 HAMMOND STREET, SUITE 321
BANGOR ME 04401
Pro Se.
APPOINTED 01/22/2018
Attorney:
ADAM SWANSON
SWANSON LAW PA
487 MAIN ST, SUITE 1
PRESQUE ISLE ME 04769
APPOINTED 01/22/2018
Filing Document:
INDICTMENT
01/19/2018
Filing Date:
Charge(s)
1 MANSLAUGHTER
Seq 4248
17-A 203(1)(A)
FOWLER
2 AGGRAVATED ASSAULT
Seq 13123
17-A 208(1)(A)
FOWLER
Docket Events:

/

Class A
MSP

/

Class B
MSP

State's Attorney:

ROBERT ELLIS

Major Case Type: HOMICIDE

10/30/2017

CARIBOU

10/30/2017

CARIBOU

01/19/2018 FILING DOCUMENT - INDICTMENT FILED ON 01/19/2018
01/19/2018 BAIL BOND - $50,000.00 CASH BAIL BOND SET BY COURT ON 01/19/2018
HAROLD STEWART , JUSTICE
CASH BAIL, NO THIRD PARTY
01/19/2018 Charge(s): 1,2
WARRANT - $50,000.00 ON COMP/INDICTMENT REQUESTED ON 01/19/2018
CASH BAIL, NO THIRD PARTY
01/19/2018 Charge(s): 1,2
WARRANT - $50,000.00 ON COMP/INDICTMENT ORDERED ON 01/19/2018
HAROLD STEWART , JUSTICE
CASH BAIL, NO THIRD PARTY
01/19/2018 Charge(s): 1,2
WARRANT - $50,000.00 ON COMP/INDICTMENT ISSUED ON 01/19/2018
CASH BAIL, NO THIRD PARTY
01/20/2018 Charge(s): 1,2
WARRANT - ON COMP/INDICTMENT EXECUTED BY AGENCY ON 01/20/2018 at 02:16 p.m.
01/24/2018 Charge(s): 1,2
HEARING - ARRAIGNMENT HELD ON 01/22/2018
DEFENDANT INFORMED OF CHARGES.
01/24/2018 Charge(s): 1,2
PLEA - NOT GUILTY ENTERED BY DEFENDANT ON 01/22/2018
01/24/2018 BAIL BOND - $50,000.00 CASH BAIL BOND SET BY COURT ON 01/22/2018

CR-200

BERNARD G O'MARA , JUDGE
CASH BAIL, NO CONTACT WITH AUSTIN BILLINGSLEA,
A.71 CASSIDY CLAIR, ANDREW GEER, KYLE NADEAU,
Printed1 on: 12/06/2019
Page 1 of 8

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
ALEXIS NICHOLS, BRITNEY WILLETT, JASON WILLETTE JR, JASON WILLETTE SR, NORMAN WILLETTE,
ALLYSON ADAMS, MARY WHITE, HILLARY JACKSON, HANAH WHITE, MORGANNE BRAGDON, BEN WHITE,
ANDREA BRAGDON, EUGENE BRAGDON, DAVID WHITE, BREANNE TROSPER
01/24/2018 Charge(s): 1,2
MOTION - MOTION FOR APPOINTMENT OF CNSL FILED BY DEFENDANT ON 01/22/2018
01/24/2018 Charge(s): 1,2
MOTION - MOTION FOR APPOINTMENT OF CNSL GRANTED ON 01/22/2018
BERNARD G O'MARA , JUDGE
COPY TO PARTIES/COUNSEL
01/24/2018 Party(s):
JONATHAN LIMARY
ATTORNEY - APPOINTED ORDERED ON 01/22/2018
Attorney: HUNTER TZOVARRAS
01/24/2018 Party(s):
JONATHAN LIMARY
ATTORNEY - APPOINTED ORDERED ON 01/22/2018
Attorney: ADAM SWANSON
01/24/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE SCHEDULE OTHER COURT ON 04/19/2018 at 08:30 a.m.
CARDC
01/24/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE NOTICE SENT ON 01/24/2018
01/24/2018 ORDER - SPECIAL ASSIGNMENT ENTERED ON 01/24/2018
ROLAND A COLE , JUSTICE
ASSIGNED TO JUSTICE STEWART
03/16/2018 BAIL BOND - $2,000.00 UNSECURED BAIL BOND FILED ON 11/03/2017
Bail Amt: $2,000
Date Bailed: 10/30/2017
03/29/2018 MOTION - OTHER MOTION FILED BY DEFENDANT ON 03/29/2018
MOTION TO AMEND CONDITIONS OF RELEASE
04/13/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE NOT HELD ON 04/13/2018
04/13/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE SCHEDULE OTHER COURT ON 04/19/2018 at 01:00 p.m.
CARDC
04/13/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE NOTICE SENT ELECTRONICALLY ON 04/13/2018
05/01/2018 Charge(s): 1,2
HEARING - DISPOSITIONAL CONFERENCE HELD ON 04/19/2018
05/01/2018 HEARING - BAIL HEARING SCHEDULE OTHER COURT ON 05/16/2018 at 09:00 a.m.
HOUSC
05/01/2018 HEARING - BAIL HEARING NOTICE SENT ELECTRONICALLY ON 05/08/2018

A.72

CR-200

Page 2 of 8

Printed2 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
05/08/2018 CASE STATUS - CASE FILE LOCATION ON 05/08/2018
GAVE TO JUSTICE HUNTER TO TAKE TO HOULTON FOR 5/16/18
05/16/2018 CASE STATUS - CASE FILE RETURNED ON 05/16/2018
GIVEN TO JUSTICE STEWART TO RETURN TO CARIBOU ON 5/16/2018
05/16/2018 HEARING - BAIL HEARING HELD ON 05/16/2018
HAROLD STEWART , JUSTICE
05/16/2018 MOTION - OTHER MOTION GRANTED ON 05/16/2018
HAROLD STEWART , JUSTICE
MOTION TO AMEND CONDITIONS OF RELEASE
05/16/2018 BAIL BOND - $5,500.00 CASH BAIL BOND AMENDED ON 05/16/2018
HAROLD STEWART , JUSTICE
CASH; NOT TO U/P ILLEGAL DRUGS/ALCOHOL/MARIJUANA; SUBMIT TO S/T FOR ID/A/M W/O ARTCULABLE
SUSPICION OR PROBABLE CAUSE; NO CONTACT W/ALLYSON ADAMS, ZACHARY JACKSON, JAZMINE BRAGDON,
CASSISY CLAIR, ANDREW GEER, KYLE NADEAU, MARY WHITE, HILLARY JACKSON, HANAH WHITE,
MORGANNE BRAGSON, NORMAN WILLETTE, JASON WILLETTE SR, BEN WHITE, ANDREA BRAGDON, EUGENE
BRAGDON, DAVID WHITE, BREANNE TROSPER, AUDTIN BILLINGSLEA, ALEXIS NICOLS, BRITNEY WILLETT,
JASON WILLETTE JR; GENERAL CUSTODIAN SEE ORDER FOR COMPLE
05/16/2018 HEARING - DISPOSITIONAL CONFERENCE SCHEDULE OTHER COURT ON 07/19/2018 at 08:30 a.m.
CARDC
05/16/2018 HEARING - DISPOSITIONAL CONFERENCE NOTICE SENT ELECTRONICALLY ON 05/16/2018
05/24/2018 BAIL BOND - $5,500.00 CASH BAIL BOND SET BY COURT ON 05/16/2018
HAROLD STEWART , JUSTICE
NO USE/POSSESS ALCOHOL/ILLEGAL DRUGS/MARIJUANA; SUBMIT TO RANDOM SEARCH/TEST, WITHOUT
PROBABLE CAUSE, FOR SAME; NO CONTACT W/PERSONS NAMED; GENRAL CUSTODIAN JOHN DEVOE; 24/7
HOUSE ARREST AT 358 WASHBURN ST, CARIBOU UNLESS IN THE COMPANYT OF JOHN DEVOE; ATTENDING
COURT APPEARANCES, LAWYER MEETING, OR MEDICAL APPOINTMENTS, FOLLOW HOUSE RULES
05/24/2018 BAIL BOND - CASH BAIL BOND COMMITMENT ISSUED ON 05/16/2018
05/30/2018 BAIL BOND - $5,500.00 CASH BAIL BOND FILED ON 05/21/2018
Bail Receipt Type: CR
Bail Amt: $5,500
Receipt Type: CK
Date Bailed: 05/16/2018

Prvdr Name:
Rtrn Name:

TESSA HEBERT
TESSA HEBERT

07/13/2018 HEARING - DISPOSITIONAL CONFERENCE CONTINUED ON 07/13/2018
08/14/2018 Charge(s): 1,2
MOTION - MOTION TO CONTINUE FILED BY DEFENDANT ON 07/18/2018
08/14/2018 Charge(s): 1,2
MOTION - MOTION TO CONTINUE GRANTED ON 07/18/2018
HAROLD STEWART , JUSTICE
COPY TO PARTIES/COUNSEL
08/30/2018 HEARING - CONFERENCE SCHEDULE OTHER COURT ON 10/11/2018 at 01:00 p.m.
CARSC
CR-200

A.73

Page 3 of 8

Printed3 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
08/30/2018 HEARING - CONFERENCE NOTICE SENT ELECTRONICALLY ON 08/30/2018
09/13/2018 MOTION - MOTION TO REVOKE BAIL FILED BY STATE ON 09/10/2018
09/13/2018 NOTE - OTHER CASE NOTE ENTERED ON 09/10/2018
STEPHEN NELSON , JUDGE
DEFENDANT'S BAIL AS SET BY THE COURT ON 5/16/18 SHALL CONTINUE UNMODIFIED PENDING HEARING ON
THIS MOTION
09/13/2018 HEARING - MOTION TO REVOKE BAIL SCHEDULE OTHER COURT ON 11/01/2018 at 01:00 p.m.
CARSC
09/13/2018 HEARING - MOTION TO REVOKE BAIL NOTICE SENT ON 09/13/2018
VIA EMAIL
10/01/2018 MOTION - OTHER MOTION FILED BY DEFENDANT ON 10/01/2018
MOTION FOR TRANSCRIPT AT STATE EXPENSE
10/01/2018 ORDER - TRANSCRIPT ORDER FILED ON 10/01/2018
10/02/2018 MOTION - OTHER MOTION GRANTED ON 10/01/2018
HAROLD STEWART , JUSTICE
MOTION FOR TRANSCRIPT AT STATE EXPENSE
10/16/2018 HEARING - CONFERENCE HELD ON 10/11/2018
HAROLD STEWART , JUSTICE
10/16/2018 ORDER - COURT ORDER ENTERED ON 10/16/2018
HAROLD STEWART , JUSTICE
FIRST SCHEDULING ORDER
10/16/2018 HEARING - CONFERENCE SCHEDULE OTHER COURT ON 01/10/2019 at 08:30 a.m.
CARSC
10/16/2018 HEARING - CONFERENCE NOTICE SENT ELECTRONICALLY ON 10/16/2018
10/16/2018 HEARING - MOTION TO REVOKE BAIL NOT HELD ON 10/16/2018
10/24/2018 OTHER FILING - TRANSCRIPT FILED ON 10/24/2018
11/02/2018 MOTION - MOTION TO AMEND BAIL FILED BY DEFENDANT ON 10/31/2018
11/05/2018 MOTION - MOTION TO AMEND BAIL GRANTED ON 11/02/2018
HAROLD STEWART , JUSTICE
COPY TO PARTIES/COUNSEL
01/07/2019 HEARING - CONFERENCE CONTINUED ON 01/07/2019
01/07/2019 HEARING - CONFERENCE SCHEDULE OTHER COURT ON 01/17/2019 at 08:15 a.m.
CARSC
ATTORNEYS ONLY
01/07/2019 HEARING - CONFERENCE NOTICE SENT ELECTRONICALLY ON 01/07/2019
02/18/2019 HEARING - CONFERENCE HELD ON 01/17/2019
HAROLD STEWART , JUSTICE
03/12/2019 TRIAL - JURY TRIAL SCHEDULE OTHER COURT ON 05/13/2019 at 09:00 a.m.

A.74

CR-200

Page 4 of 8

Printed4 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
CARSC
JURY SELECTION
03/12/2019 TRIAL - JURY TRIAL SCHEDULE OTHER COURT ON 05/14/2019 at 09:00 a.m.
CARSC
DAY 1
03/12/2019 TRIAL - JURY TRIAL SCHEDULE OTHER COURT ON 05/15/2019 at 09:00 a.m.
CARSC
DAY 2
03/12/2019 TRIAL - JURY TRIAL SCHEDULE OTHER COURT ON 05/16/2019 at 09:00 a.m.
CARSC
DAY 3
03/12/2019 TRIAL - JURY TRIAL SCHEDULE OTHER COURT ON 05/17/2019 at 09:00 a.m.
CARSC
DAY 4
03/12/2019 TRIAL - JURY TRIAL NOTICE SENT ON 03/12/2019
04/01/2019 HEARING - CONFERENCE SCHEDULE OTHER COURT ON 04/11/2019 at 08:15 a.m.
CARSC
04/01/2019 HEARING - CONFERENCE NOTICE SENT ELECTRONICALLY ON 04/01/2019
04/03/2019 HEARING - CONFERENCE SCHEDULE OTHER COURT ON 04/04/2019 at 03:30 p.m.
CARSC
04/03/2019 HEARING - CONFERENCE NOTICE SENT ELECTRONICALLY ON 04/03/2019
04/05/2019 HEARING - CONFERENCE HELD ON 04/04/2019
HAROLD STEWART , JUSTICE
04/05/2019 HEARING - CONFERENCE NOT HELD ON 04/04/2019
05/17/2019 TRIAL - JURY TRIAL HELD ON 05/17/2019
HAROLD STEWART , JUSTICE
Reporter: WENDY AMBROSE
05/17/2019 TRIAL - JURY TRIAL HELD ON 05/16/2019
HAROLD STEWART , JUSTICE
Reporter: WENDY AMBROSE
05/17/2019 TRIAL - JURY TRIAL HELD ON 05/15/2019
HAROLD STEWART , JUSTICE
Reporter: WENDY AMBROSE
05/17/2019 TRIAL - JURY TRIAL HELD ON 05/14/2019
HAROLD STEWART , JUSTICE
Reporter: WENDY AMBROSE
05/17/2019 TRIAL - JURY TRIAL SELECTED ON 05/13/2019
05/17/2019 TRIAL - JURY TRIAL NOT HELD ON 05/13/2019
05/17/2019 Charge(s): 1,2
VERDICT - GUILTY RETURNED ON 05/17/2019
05/17/2019 Charge(s): 1,2
FINDING - GUILTY ENTERED BY COURT ON 05/17/2019
HAROLD STEWART , JUSTICE
05/17/2019 Charge(s): 1,2
CR-200

A.75

Page 5 of 8

Printed5 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
FINDING - GUILTY CONT FOR SENTENCING ON 05/17/2019
05/17/2019 HEARING - SENTENCE HEARING SCHEDULE OTHER COURT ON 06/20/2019 at 09:00 a.m.
HOUSC
05/20/2019 OTHER FILING - WITNESS LIST FILED BY STATE ON 05/13/2019
05/20/2019 MOTION - MOTION IN LIMINE FILED BY STATE ON 05/06/2019
05/20/2019 HEARING - SENTENCE HEARING NOTICE SENT ELECTRONICALLY ON 05/20/2019
05/20/2019 MOTION - MOTION IN LIMINE GRANTED ON 05/14/2019
HAROLD STEWART , JUSTICE
COPY TO PARTIES/COUNSEL
BY AGREEMENT
05/31/2019 MOTION - OTHER MOTION FILED BY DEFENDANT ON 05/31/2019
DEFENDANT'S MOTION FOR ENLARGEMENT OF TIME TO FILE RULE 29 MOTION
05/31/2019 MOTION - OTHER MOTION GRANTED ON 05/31/2019
HAROLD STEWART , JUSTICE
DEFENDANT'S MOTION FOR ENLARGEMENT OF TIME TO FILE RULE 29 MOTION
06/19/2019 OTHER FILING - SENTENCING MEMORANDUM FILED BY STATE ON 06/19/2019
06/19/2019 OTHER FILING - SENTENCING MEMORANDUM FILED BY DEFENDANT ON 06/18/2019
06/20/2019 Charge(s): 1,2
MOTION - MOTION FOR JDGMT OF ACQUITTAL FILED BY DEFENDANT ON 06/06/2019
06/20/2019 Charge(s): 1,2
MOTION - MOTION FOR JDGMT OF ACQUITTAL DENIED ON 06/20/2019
HAROLD STEWART , JUSTICE
COPY TO PARTIES/COUNSEL
06/20/2019 HEARING - SENTENCE HEARING HELD ON 06/20/2019
HAROLD STEWART , JUSTICE
HOUSC FTR
06/20/2019 MOTION - MOTION TO REVOKE BAIL MOOT ON 06/20/2019
06/20/2019 BAIL BOND - UNSECURED BAIL BOND BAIL RELEASED ON 06/20/2019
Date Bailed: 10/30/2017
06/20/2019 BAIL BOND - UNSECURED BAIL BOND RELEASE ACKNOWLEDGED ON 06/20/2019
Date Bailed: 10/30/2017
06/20/2019 Charge(s): 1,2
MOTION - MOTION FOR STAY SUSP-APPEAL MADE ORALLY BY DEFENDANT ON 06/20/2019
REQUEST FOR POST CONVICTION BAIL AND STAY OF EXECUTION PENDING APPEAL
06/20/2019 Charge(s): 1,2
MOTION - MOTION FOR STAY SUSP-APPEAL GRANTED ON 06/20/2019
HAROLD STEWART , JUSTICE
06/20/2019 BAIL BOND - CASH BAIL BOND CONT AS POST CONVIC ON 06/20/2019

A.76

CR-200

Page 6 of 8

Printed6 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
Date Bailed: 05/16/2018
06/20/2019 Charge(s): 1
RULING - ORIGINAL ORDERED ON 06/20/2019
HAROLD STEWART , JUSTICE
It is adjudged that the defendant is guilty of 1 MANSLAUGHTER 17-A 203(1)(A) Class A as charged and convicted.
The defendant is sentenced to the DEPARTMENT OF CORRECTIONS for a term of 16 year(s).
Execution stayed pending appeal.
It is ordered that all but 45 month(s) of the sentence as it relates to confinement be suspended.
Defendant to receive credit for time served.
It is ordered that the defendant be placed on a period of probation for a term of 4 year(s) upon conditions attached hereto and
incorporated by reference herein.
Said Probation to commence after completion of the unsuspended term of imprisonment.
It is ordered that the defendant forfeit and pay the sum of $2519.00 as restitution through Probation.
For the benefit of :
VICTIMS COMPENSATION FUND Amount $2519
$ 35 VICTIMS COMPENSATION FUND
TOTAL DUE: $ 35.00.
Special Conditions of Probation:
1. refrain from all criminal conduct and violation of federal, state and local laws.
2. report to the probation officer immediately and thereafter as directed and within 48 hours of your release from jail.
3. answer all questions by your probation officer and permit the officer to visit you at your home or elsewhere.
4. obtain permission from your probation officer before changing your address or employment.
5. not leave the State of Maine without written permission of your probation officer.
6. maintain employment and devote yourself to an approved employment or education program.
8.

identify yourself as a probationer to any law enforcement officer if you are arrested, detained or questioned for any reason and
notify your probation officer of that contact within 24 hours.
9. waive extradition back to the State of Maine from any other place.
10. not own, possess or use any firearm or dangerous weapon if you have ever been convicted of a crime in any jurisdiction with a
potential penalty of one year or more or any crime involving domestic violence or the use of a firearm or dangerous weapon.
11. pay to the Department of Corrections a supervision fee of $
10.00 per month.
12a. provide a DNA sample if convicted of applicable offense listed in 25 MRSA Section 1574.

submit to random search and testing for firearms at the direction of a law enforcement officer.
submit to random search and testing for dangerous weapons at the direction of a law enforcement officer.
pay restitution as stated earlier.
SUBMIT TO SEARCH AND TESTING FOR EXCESSIVE USE OF ALCOHOL .05
NOT EXCESSIVELY POSSESS
ALCOHOL .05
Have no contact of any kind with ALLYSON ADAMS and the family of said person.
Have no contact of any kind with MARY WHITE and the family of said person.
Have no contact of any kind with MORGANNE BRAGDON and the family of said person.
Have no contact of any kind with ANDREA BRAGDON and the family of said person.
Have no contact of any kind with EUGENE BRAGDON and the family of said person.
Have no contact of any kind with NORMAN WILLETTE and the family of said person.
Have no contact of any kind with JASON WILLETTE SR and the family of said person.
Have no contact of any kind with JASON WILLETTE JR and the family of said person.
Have no contact of any kind with ANDREW GEER and the family of said person.
Have no contact of any kind with ALEXIS NICHOLS and the family of said person.
06/20/2019 Charge(s): 1
RULING - ORIGINAL ISSUED ON 06/20/2019
DEFENDANT ACKNOWLEDGES RECEIPT
Charge(s): 2
CR-200

A.77

Page 7 of 8

Printed7 on: 12/06/2019

JONATHAN LIMARY
AROCD-CR-2018-00012
DOCKET RECORD
06/20/2019 RULING - ORIGINAL ORDERED ON 06/20/2019
HAROLD STEWART , JUSTICE
It is adjudged that the defendant is guilty of 2 AGGRAVATED ASSAULT 17-A 208(1)(A) Class B as charged and convicted.
The defendant is sentenced to the DEPARTMENT OF CORRECTIONS for a term of 45 month(s).
This sentence to be served concurrently with: AROCDCR201800012 Charge: 1
Execution stayed pending appeal.
Defendant to receive credit for time served.
$ 35 VICTIMS COMPENSATION FUND
TOTAL DUE: $ 35.00.
06/20/2019 Charge(s): 2
RULING - ORIGINAL ISSUED ON 06/20/2019
DEFENDANT ACKNOWLEDGES RECEIPT
06/20/2019 NOTE - OTHER CASE NOTE ENTERED ON 06/20/2019
APPEAL FORMS GIVEN TO DEFENSE ATTORNEY
06/20/2019 OTHER FILING - FINE PAYMENT SCHEDULE ORDERED ON 06/20/2019
INSTALLMENT PYMTS: 0;DAILY: F;WEEKLY: F;BI-WEEKLY: F;MONTHLY: F;BI-MONTHLY: F;PYMT BEGIN: AT
0;PYMT IN FULL: 20190720 AT 0;THRU PPO: F;PYMT DUE AMT: 70;PMT DUE: 20190720 AT 0;OTHER:
08/13/2019 Charge(s): 1,2
APPEAL - NOTICE OF APPEAL FILED ON 07/01/2019
08/13/2019 Charge(s): 1,2
APPEAL - NOTICE OF APPEAL SENT TO LAW COURT ON 08/13/2019
08/13/2019 MOTION - OTHER MOTION FILED BY DEFENDANT ON 07/01/2019
MOTION FOR TRANSCRIPT AT STATE EXPENSE
08/13/2019 ORDER - TRANSCRIPT ORDER ENTERED ON 07/01/2019
08/14/2019 MOTION - OTHER MOTION GRANTED ON 08/14/2019
WILLIAM STOKES , JUSTICE
MOTION FOR TRANSCRIPT AT STATE EXPENSE
08/19/2019 Charge(s): 1,2
APPEAL - NOTICE OF APPEAL SENT TO REPORTER/ER ON 08/19/2019
08/19/2019 Charge(s): 1,2
APPEAL - RECORD ON APPEAL DUE IN LAW COURT ON 08/05/2019
08/19/2019 Charge(s): 1,2
APPEAL - RECORD ON APPEAL SENT TO LAW COURT ON 08/19/2019
VIA UPS
FINE PAYMENT SCHEDULE
Execution/payment stayed to pay in full by 07/20/2019 or warrant to issue.
A TRUE COPY
ATTEST: _______________________________
Clerk

A.78

CR-200

Page 8 of 8

Printed8 on: 12/06/2019

7
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

And the Law Court has cautioned against
that and I object to the request. I am
satisfied with the proposal the Court has
made, which gets to a general issue about
philosophical beliefs about fighting or
anything of that nature.
THE COURT: So, the Court recognizes the
issue of giving a self-defense instruction; and
the bar is quite low in there being evidence
sufficient to give that instruction. However,
e e -- we have not received any of the
e idence a hi poin . And i clea ha he
State and Defense have, um, clearly differing
views as to whether self-defense will be
generated. So, it strikes me that that remains
a decision to be made upon presentation of
the evidence that we see in the courtroom.
The parties are in agreement that this is
-- the entire overall facts of this case will
clearly show that there was fighting occurring
and that, um, fighting amongst individuals
appear to the Court to be one of those things
which an individual juror could have certain
bias or prejudice. Um, and so the Court -I m no going o -- I refuse to give the
A.79
9

8
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

instructions -- or the voir dire questions, um,
that specifically address self-defense or any
connotation of that. However, I will give a
voir dire question that inquires of, um,
whether or not jurors would have, um, any
difficulty in being a fair and impartial juror
when fighting has occurred.
Anything further to put on the record? I
do want to tweak that a little bit, but we can
do that off the record.
MR. TZOVARRAS: Just to make the
c
c a ,
a
ab
,
a
ab
others.
THE COURT: Yes, yes.
MR. TZOVARRAS: So, you made a ruling
on both, just for the record.
THE COURT: Yeah, I view those as close
cousins.
MR. TZOVARRAS: Right.
THE COURT: S ,
I
a
,I
b .
MR. TZOVARRAS: Yes. No, nothing
further, your Honor. We understand the
ruling.
A.80
10

A.81
11

A.82
12

A.83
13

A.84
14

A.85
15

A.86
16

A.87
17

A.88
18

A.89
19

A.90
20

A.91
21

